No.

In the Supreme Court of the United States
UNITED STATES OF AMERICA, PETITIONER
v.
STATE OF WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

BRIAN H. FLETCHER
Acting Solicitor General
Counsel of Record
BRIAN M. BOYNTON
Acting Assistant Attorney
General
MALCOLM L. STEWART
Deputy Solicitor General
CHRISTOPHER G. MICHEL
Assistant to the Solicitor
General
MARK B. STERN
JOHN S. KOPPEL
Attorneys
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

QUESTION PRESENTED

Whether a state workers’ compensation law that applies exclusively to federal contract workers who perform services at a specified federal facility is barred by
principles of intergovernmental immunity, or is instead
authorized by 40 U.S.C. 3172(a), which permits the application of state workers’ compensation laws to federal
facilities “in the same way and to the same extent as if
the premises were under the exclusive jurisdiction of
the State.”

(I)

PARTIES TO THE PROCEEDING

Petitioner (plaintiff-appellant in the court of appeals)
is the United States of America. Respondents (defendants-appellees in the court of appeals) are the State of
Washington; Jay Robert Inslee, in his official capacity
as Governor of the State of Washington; Joel Sacks, in
his official capacity as Director of the Washington State
Department of Labor and Industries; and the Washington State Department of Labor and Industries.
RELATED PROCEEDINGS

United States District Court (E.D. Wash.):
United States v. State of Washington, No. 18-cv-5189
(June 13, 2019)
United States Court of Appeals (9th Cir.):
United States v. State of Washington, No. 19-35673
(Aug. 19, 2020) (initial panel opinion)
United States v. State of Washington, No. 19-35673
(Apr. 15, 2021) (en banc denial order and amended
panel opinion)

(II)

TABLE OF CONTENTS

Page
Opinions below .............................................................................. 1
Jurisdiction .................................................................................... 1
Constitutional and statutory provisions involved...................... 2
Statement ...................................................................................... 3
A. Factual and statutory background .................................. 3
B. Prior proceedings .............................................................. 8
Reasons for granting the petition ............................................. 11
A. The Ninth Circuit seriously erred in construing
40 U.S.C. 3172(a) to authorize the application of
HB 1723 ............................................................................ 12
1. HB 1723 discriminates against the United
States and the firms that employ federal
contract workers, in violation of the
intergovernmental-immunity principle of
the Supremacy Clause ............................................ 13
2. Section 3172(a) does not clearly and
unambiguously authorize the application of
HB 1723 .................................................................... 17
3. The court of appeals’ construction of Section
3172(a) is mistaken .................................................. 22
B. This Court’s review is warranted .................................. 28
Conclusion ................................................................................... 32
Appendix A — Court of appeals opinion (Aug. 19, 2020)...... 1a
Appendix B — Court of appeals order and amended
opinion (Apr. 15, 2021) ............................. 21a
Appendix C — District court order granting defendants’
motion for summary judgment
(June 13, 2019) .......................................... 76a
Appendix D — Statutory provisions..................................... 83a
Appendix E — Maps of the Hanford site ............................. 88a

(III)

IV
TABLE OF AUTHORITIES

Cases:

Page

Dawson v. Steager, 139 S. Ct. 698, 702 (2019) ........ 13, 15, 18
Dennis v. Department of Labor & Indus.,
745 P.2d 1295 (Wash. 1987) .................................................. 5
FAA v. Cooper, 566 U.S. 284 (2012) ..................................... 21
Goodyear Atomic Corp. v. Miller, 486 U.S. 174
(1988) ........................................................................... passim
Hancock v. Train, 426 U.S. 167 (1976) ................................ 21
McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316
(1819) .............................................................................. 13, 14
Murray v. Gerrick & Co., 291 U.S. 315 (1934).............. 20, 29
North Dakota v. United States, 495 U.S. 423 (1990) ......... 13
Roelofs v. United States, 501 F.2d 87
(5th Cir. 1974), cert. denied, 423 U.S. 830 (1975)............. 18
South Carolina v. Baker, 485 U.S. 505 (1988) ........ 13, 15, 24
Travis v. Reno, 163 F.3d 1000 (7th Cir. 1998),
cert. denied, 528 U.S. 1114 (2000) ..................................... 18
United States v. County of Fresno, 429 U.S. 452
(1977) ...................................................................................... 4
United States Dep’t of Energy v. Ohio, 503 U.S. 607
(1992) .................................................................................... 21
United States v. Lewis Cnty., 175 F.3d 671
(9th Cir.), cert. denied, 528 U.S. 1018 (1999) ......... 9, 26, 27
Washington v. United States, 460 U.S. 536 (1983) ...... 14, 29
Constitution, statutes, and rule:
U.S. Const. Art. VI (Supremacy Clause) ................ 2, 3, 8, 12
Act of June 25, 1936, ch. 822, 49 Stat. 1938 ........................... 5
Federal Employees’ Compensation Act,
5 U.S.C. 8101 et seq. .............................................................. 4
5 U.S.C. 8101(a)(1)............................................................. 4

V
Constitution, statutes, and rule—Continued:

Page

4 U.S.C 111(a) .................................................................. 10, 27
7 U.S.C. 1984 .................................................................... 10, 26
16 U.S.C. 835c-1(b) ................................................................ 32
40 U.S.C. 3172 ................................................................ 5, 8, 17
40 U.S.C. 3172(a) .......................................................... passim
40 U.S.C. 3172(c) ...................................................................... 5
42 U.S.C. 9620(a)(4) ......................................................... 10, 27
49 U.S.C. 5126 ........................................................................ 32
H.B. 1490, 66th Leg., Regular Sess. (2019) ........................ 30
H.B. 1723, 66th Leg., Regular Sess. (2018) .......................... 3
Wash. Rev. Code Ann. (West 2020):
(Washington Industrial Insurance Act)
§ 51.04.030 .......................................................................... 6
§ 51.08.140 .......................................................................... 5
§ 51.12.060 .......................................................................... 5
§ 51.14.010 .......................................................................... 6
§ 51.28.055 .......................................................................... 5
§ 51.32.010 .......................................................................... 5
§ 51.32.180 .......................................................................... 5
§ 51.32.185 ........................................................................ 18
§ 51.32.187 .......................................................................... 4
§ 51.32.187(1)(a) ........................................................... 6, 14
§ 51.32.187(1)(b) ...................................................... passim
§ 51.32.187(2) ...................................................................... 7
§ 51.32.187(2)(a) ................................................................. 7
§ 51.32.187(2)(b) ................................................................. 7
§ 51.32.187(3)-(4) ................................................................ 7
§ 51.32.187(4)(a) ............................................................... 20
§ 51.32.187(5)(a)-(b) ........................................................... 7
Sup. Ct. R. 10(c) ..................................................................... 28

VI
Miscellaneous:

Page

H.R. Rep. No. 2656, 74th Cong., 2d Sess. (1936) ................ 20
S. Rep. No. 2294, 74th Cong., 2d Sess. (1936)..................... 20
U.S. Army Corps of Engineers, Formerly Used
Defense Sites, https://www.usace.army.mil/
Missions/Environmental/Formerly-Used-DefenseSites/FUDS-GIS/House (last visited Sept. 7, 2021) ........ 31
U.S. Department of Energy:
Cleanup Sites, https://www.energy.gov/em/
cleanup-sites (last visited Sept. 7, 2021) .................. 31
Hanford Site: Hanford History,
https://go.usa.gov/xFdtn (last visited Sept. 7,
2021) .............................................................................. 3

In the Supreme Court of the United States
No.
UNITED STATES OF AMERICA, PETITIONER
v.
STATE OF WASHINGTON, ET AL.
ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

PETITION FOR A WRIT OF CERTIORARI

The Acting Solicitor General, on behalf of the United
States, respectfully petitions for a writ of certiorari to
review the judgment of the United States Court of Appeals for the Ninth Circuit in this case.
OPINIONS BELOW

The initial opinion of the court of appeals (App., infra, 1a-20a) is reported at 971 F.3d 856. The order of
the court of appeals denying a petition for rehearing en
banc, the concurring and dissenting opinions accompanying that order, and the amended panel opinion (App.,
infra, 21a-75a) are reported at 994 F.3d 994. The order
of the district court (App., infra, 76a-82a) is unreported.
JURISDICTION

The judgment of the court of appeals was entered on
August 19, 2020. A petition for rehearing was denied on
April 15, 2021 (App., infra, 21a-23a). By orders dated
(1)

2
March 19, 2020, and July 19, 2021, this Court extended
the time within which to file any petition for a writ of
certiorari due on or after March 19, 2020, to 150 days
from the date of the lower-court judgment, order denying discretionary review, or order denying a timely petition for rehearing, as long as that judgment or order
was issued before July 19, 2021. The jurisdiction of this
Court is invoked under 28 U.S.C. 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The Supremacy Clause of the United States Constitution provides in pertinent part that “[t]his Constitution, and the Laws of the United States which shall be
made in Pursuance thereof * * * , shall be the supreme
Law of the Land.” U.S. Const. Art. VI.
Section 3172(a) of Title 40 provides:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and
awards of the authority may apply the laws to all land
and premises in the State which the Federal Government owns or holds by deed or act of cession, and to
all projects, buildings, constructions, improvements,
and property in the State and belonging to the Government, in the same way and to the same extent as
if the premises were under the exclusive jurisdiction
of the State in which the land, premises, projects,
buildings, constructions, improvements, or property
are located.
40 U.S.C. 3172(a).
Other pertinent statutory provisions are reprinted in
the appendix to this petition. App., infra, 83a-87a.

3
STATEMENT

In 2018, the State of Washington enacted House Bill
1723, 66th Leg., Regular Sess. (H.B. 1723), a workers’
compensation provision that applies exclusively to federal contract workers at a federally owned site in the
State. Wash. Rev. Code Ann. § 51.32.187 (West 2020)
(App., infra, 83a-87a). 1 The United States filed suit
against the State and related parties (respondents in
this Court), alleging that HB 1723’s discriminatory
treatment of the federal government and of the firms
that employ the federal contract workers violates the
intergovernmental-immunity principle of the Supremacy Clause. App., infra, 3a. The district court granted
summary judgment to respondents. Id. at 76a-82a. A
panel of the court of appeals affirmed. Id. at 1a-20a.
The panel subsequently amended its opinion, and the
court denied a petition for rehearing en banc over the
dissent of four judges. Id. at 21a-75a.
A. Factual And Statutory Background

1. As part of the Manhattan Project, the United
States acquired land near Hanford, Washington, and
built facilities that ultimately “produced nearly twothirds of the nation’s weapons grade plutonium for use
in the United States nuclear program during World
War II and the Cold War.” App., infra, 2a; see U.S.
Dep’t of Energy (DOE), Hanford Site: Hanford History, https://go.usa.gov/xFdtn. While vital to the Nation’s defense, the Hanford site “generated significant
This petition uses the term “federal contract workers” to refer
to individuals who are employed by private firms that have entered
into contracts or subcontracts to perform services for the federal
government. All citations to the Revised Code of Washington Annotated (Wash Rev. Code Ann.) are to the West 2020 edition.
1

4
amounts of highly radioactive and chemically hazardous
waste.” App., infra, 2a. The site was decommissioned
in 1989, and DOE is now overseeing a massive cleanup
“expected to last for at least six more decades.” Ibid.
As relevant here, cleanup and similar activities at
and around the Hanford site are performed by four distinct categories of workers. First, a “relatively small
workforce of about 400 DOE employees manages contracts and provides oversight” of the federal project.
C.A. E.R. 109. Second, roughly 10,000 federal contract
workers perform most of the day-to-day work associated with the DOE cleanup. App., infra, 4a. Their duties range from hazardous work, such as remediating
waste sites and transporting radioactive debris, to the
typical office jobs of administrative assistants, accountants, and lawyers. C.A. E.R. 71, 74, 109. Third, Washington state regulators conduct frequent inspections
throughout the Hanford site, including in the areas
where radioactive and chemically hazardous waste are
present. Id. at 75-76, 109-110. Finally, private employees on and near the Hanford site, although not part of
the federal cleanup, “do many of the same types of hazardous jobs” as the federal contract workers. Id. at 74.
2. Federal employees at Hanford, like all other federal employees, receive workers’ compensation coverage through the Federal Employees’ Compensation Act
(FECA), 5 U.S.C. 8101 et seq. The FECA does not apply to individuals, including federal contract workers,
who are directly employed by entities other than the
federal government. 5 U.S.C. 8101(a)(1).
Absent congressional consent, States generally have
limited authority to enforce their laws at federally
owned facilities or on federal land. See Goodyear
Atomic Corp. v. Miller, 486 U.S. 174, 180-182 & nn.1-4

5
(1988). In 1936, to fill those gaps in coverage, Congress
enacted a statute (now codified without substantial
change at 40 U.S.C. 3172) that permits the state “authority” charged with enforcing workers’ compensation
laws to “apply” those laws to federal land and facilities
within the State “in the same way and to the same extent as if the premises were under the exclusive jurisdiction of the State.” 40 U.S.C. 3172(a); see Act of June
25, 1936, ch. 822, 49 Stat. 1938; App., infra, 5a & n.3, 12a
& n.6. That law does not affect the FECA’s coverage of
federal employees. 40 U.S.C. 3172(c).
Pursuant to that authorization, Washington has long
applied its workers’ compensation law—the Washington Industrial Insurance Act (WIIA)—to federal land
and property within the State. Wash. Rev. Code Ann.
§ 51.12.060; see App., infra, 4a-5a & n.2. Accordingly,
federal contract workers, private employees, and state
employees at Hanford are covered by the state workers’
compensation system, while federal employees remain
covered by the FECA. See App., infra, 5a-6a.
3. Workers covered by the WIIA generally receive
benefits only if they suffer an injury or illness “in the
course of [their] employment.” Wash. Rev. Code Ann.
§ 51.32.010. Of particular relevance here, workers are
entitled to benefits if they have an “[o]ccupational
disease”—a “disease or infection [that] arises naturally
and proximately out of employment.” Id. §§ 51.08.140,
51.32.180. To obtain occupational-disease benefits,
workers must establish that their conditions are “probably, as opposed to possibly, caused by the[ir] employment.” Dennis v. Department of Labor & Indus., 745
P.2d 1295, 1301 (Wash. 1987). A claim for occupationaldisease benefits is generally subject to a two-year statute of limitations. Wash. Rev. Code Ann. § 51.28.055.

6
Employers covered by the WIIA are required to provide workers’ compensation coverage in one of two
ways: by paying premiums to a state-administered benefits fund, or by self-insuring and paying benefits directly to their employees. Wash. Rev. Code Ann.
§ 51.14.010. Under Washington law, DOE may serve as
the self-insured employer of federal contract workers,
even though the contract workers are not federal employees. Id. § 51.04.030. DOE performs that function
for most of its contract workers at Hanford and is accordingly responsible for paying their workers’ compensation benefits. See App., infra, 6a; C.A. E.R. 111113, 121-126. The firms that employ other federal contract workers provide workers’ compensation coverage
for their employees and are then reimbursed by DOE.
See App., infra, 6a; C.A. E.R. 111-113. The allocation
of costs between the federal government and the firms
that employ federal contract workers is determined by
agreements that define DOE’s responsibility for covering the workers’ compensation costs that particular
firms incur. See C.A. E.R. 111-113.
4. In 2018, Washington enacted HB 1723, a retroactive amendment to the state workers’ compensation law
that applies exclusively to “United States department
of energy Hanford site workers.” Wash. Rev. Code
Ann. § 51.32.187(1)(b). That term is defined in relevant
part as individuals who have “engaged in the performance of work, either directly or indirectly, for the
United States” at specified locations on the Hanford
site “for at least one eight-hour shift.” Ibid. The specified locations exclude land owned by the State or leased
to private companies. Id. § 51.32.187(1)(a). HB 1723
covers at least 100,000 current and former federal

7
contract workers who have performed services at Hanford during the past eight decades. App., infra, 7a.
HB 1723 departs from the State’s general workers’
compensation scheme in several dramatic ways. While
most workers’ compensation claimants must demonstrate a causal link between their medical conditions
and their employment, p. 5, supra, HB 1723 creates a
“prima facie presumption” that specified illnesses “are
occupational diseases” triggering benefits eligibility.
Wash. Rev. Code Ann. § 51.32.187(2)(a). The specified
illnesses are defined broadly and include common conditions such as “[r]espiratory disease,” numerous cancers, and “[n]eurological disease.” Id. § 51.32.187(3)-(4).
The presumption of work-connection applies whether or
not the contract worker performed dangerous work at
Hanford, and it can be rebutted only “by clear and convincing evidence” that the illness had a different cause.
Id. § 51.32.187(2)(b). HB 1723 applies “for the lifetime”
of a covered contract worker and allows reopening of
previously denied claims, including by a deceased contract worker’s survivors. Id. § 51.32.187(5)(a)-(b).
HB 1723 thus makes it far easier for current and former Hanford federal contract workers to obtain workers’ compensation benefits. It consequently exposes
their employers—and by extension the United States—
to massive new costs that similarly situated state and
private employers do not incur. See C.A. E.R. 74-76,
108-112, 121-126. Those effects were well known to the
state legislators who enacted HB 1723. See, e.g., D. Ct.
Doc. 20, at 7 (Mar. 1, 2019) (quoting sponsor’s statement
that the State would have “no further financial obligation under this bill” and that the costs “would be paid
for by the federal program”); C.A. E.R. 101 (state fiscal
analysis stating that “DOE will be responsible for all

8
benefit-related costs arising out of this bill”) (citation
omitted).
B. Prior Proceedings

1. The United States sued respondents in federal
district court, alleging that HB 1723 violates the intergovernmental-immunity principle of the Supremacy
Clause. App., infra, 76a. The court recognized that
“the Supremacy Clause [generally] prohibits states
from * * * discriminating against * * * the federal
government,” but that “Congress can provide clear and
unambiguous authorization for state regulations that
would otherwise be impermissible.” Id. at 79a. The
court concluded that 40 U.S.C. 3172 provides such authorization for HB 1723. App., infra, 79a. In the court’s
view, Section 3172(a) allows a State to “regulate federal
lands within its geographical boundaries with all the
tools that could be brought to bear on non-federally
owned land,” even if the result is discrimination against
the federal government or against firms with which the
government contracts. Id. at 80a. The district court accordingly granted summary judgment to respondents.
Id. at 81a.
2. A panel of the court of appeals affirmed. App.,
infra, 1a-20a. The panel recognized that “state laws are
invalid if they * * * discriminate against the Federal
Government or those with whom it deals * * * unless
Congress provides ‘clear and unambiguous’ authorization for such regulation.” Id. at 9a (citations, internal
quotation marks, and brackets omitted). The panel observed that HB 1723 “applies only to” federal contract
workers. Ibid. The panel accordingly stated that
“whether HB 1723 violates the doctrine of intergovernmental immunity” depends on whether Section 3172(a)’s
waiver of immunity encompasses state “workers’ com-

9
pensation laws that apply uniquely to the workers of
those with whom the Federal Government deals.” Id.
at 10a.
The panel held that Section 3172(a) authorizes such
a law. App., infra, 10a-18a. In support of that conclusion, the panel relied principally on Section 3172(a)’s
use of the phrase “as if the premises were under the exclusive jurisdiction of the state.” See id. at 16a-18a.
The panel stated that, when that phrase is read together
with “the phrase ‘in the same way and to the same extent[,]’ * * * it is evident that § 3172 removes federal
jurisdiction as a barrier to a state’s authority over workers’ compensation laws for all who are located in the
state.” Id. at 16a-17a (citation omitted). The panel accordingly understood Section 3172(a) to allow a State
“to apply workers’ compensation laws to federal land located in the State, without limitation,” subject only to
“constitutional constraints” other than intergovernmental immunity. Id. at 18a-19a.
The panel rejected the government’s contention that
Section 3172(a) does not authorize discrimination
against the United States or those with whom it deals.
App., infra, 12a-16a. The panel stated that “[t]he plain
text of § 3172 does not purport to limit the workers’
compensation laws for which it waives intergovernmental immunity to only those that are ‘generally applicable.’ ” Id. at 12a. It also noted this Court’s statement in
Goodyear Atomic that Section 3172(a)’s materially
identical predecessor “places no express limitation on
the type of workers’ compensation scheme that is authorized.” Id. at 13a (quoting 486 U.S. at 183) (emphasis
added). The panel further relied on the Ninth Circuit’s
prior holding in United States v. Lewis County, 175
F.3d 671, cert. denied, 528 U.S. 1018 (1999), that a state

10
tax applicable to federal and private farmland but not
to state-owned farmland was authorized by a federal
law that permitted States to tax federal farmland “in
the same manner and to the same extent as other property is taxed,” 7 U.S.C. 1984. App., infra, 13a-15a. Finally, the panel suggested that other federal statutes
more explicitly codify a nondiscrimination rule, see
4 U.S.C. 111(a); 42 U.S.C. 9620(a)(4), and inferred that
Section 3172(a) would include similar language if Congress had intended to restrict state workers’ compensation schemes in that manner. App., infra, 15a-18a & n.7.
3. In response to a petition for rehearing en banc,
the panel amended one sentence of its opinion, see App.,
infra, 22a, and the court of appeals denied rehearing
over the dissent of four judges, id. at 23a.
In his dissent, Judge Collins—joined by Judges Callahan, Bennett, and Bress—described the panel’s holding as an “astonishing” and “egregious” error that construed Section 3172(a) to “mean the exact opposite of
what its words say” and “defied” this Court’s “directly
controlling” decision in Goodyear Atomic. App., infra,
38a-40a. The dissent emphasized that Section 3172(a)
authorizes “the application of the ‘workers’ compensation laws’ of a State to employees at federal facilities
only ‘in the same way and to the same extent’ as if the
facilities were not under federal jurisdiction.” Id. at 39a
(emphasis added; citation omitted). The dissent observed that the Goodyear Atomic Court had described
the same statutory language as “compel[ling] the same
workers’ compensation award for an employee injured
at a federally owned facility as the employee would receive if working for a wholly private facility.” Ibid.
(quoting 486 U.S. at 183-184). In the dissenters’ view,
that statutory text and this Court’s construction in

11
Goodyear Atomic “unambiguously required [the panel]
to strike down” HB 1723, because HB 1723’s “whole
point” is to treat federal contract workers at Hanford
differently from other workers. Id. at 39a-40a. The dissent added that the panel’s decision could inflict substantial “financial consequences” on the United States
and would permit “any State in the Ninth Circuit * * *
to impose its own highly burdensome and facially discriminatory workers’ compensation rules against the
Federal Government.” Id. at 56a.
Judge Milan Smith, the author of the panel opinion,
filed an opinion concurring in the denial of rehearing en
banc. App., infra, 23a-37a. He construed Section
3172(a) to mean that “a state may enact a workers’ compensation scheme for federally-owned property as long
as it could enact the same scheme ‘in the same way and
to the same extent’ if the property were under the jurisdiction of the state.” Id. at 25a. Because “Washington could enforce a version of HB 1723 that did not involve the Federal Government * * * to a hypothetical
state-owned Hanford site,” Judge Smith concluded that
the State could apply HB 1723 at Hanford, even though
no such Washington law actually applies to individuals
other than Hanford federal contract workers. Ibid. (citation omitted).
REASONS FOR GRANTING THE PETITION

HB 1723 explicitly discriminates against the United
States and those with whom it deals, and the Ninth Circuit badly erred in upholding the law’s application to
federal contract workers at the Hanford site. In authorizing a state workers’ compensation authority to “apply” the State’s “workers’ compensation laws” to federal facilities “in the same way and to the same extent
as if the premises were under the exclusive jurisdiction

12
of the State,” 40 U.S.C. 3172(a) (emphasis added), Congress did not permit States to adopt laws that impose
unique burdens on the United States and the firms that
it engages to carry out federal functions. The panel’s
holding that Section 3172(a) authorizes such discrimination conflicts with this Court’s binding construction of
the relevant statutory language in Goodyear Atomic
Corp. v. Miller, 486 U.S. 174 (1988).
The practical consequences of the panel’s mistake
are far-reaching. Even if the Hanford site is considered
in isolation, the decision is likely to cost the United
States tens of millions of dollars annually for the remainder of the 21st century. And the panel’s logic opens
the door to discriminatory state legislation targeting
other federal facilities throughout the Nation’s largest
circuit. This Court should intervene to forestall the
“sweeping implications” of the panel’s “egregious error.” App., infra, 56a-57a (Collins, J., dissenting from
denial of rehearing en banc.).
A. The Ninth Circuit Seriously Erred In Construing 40
U.S.C. 3172(a) To Authorize The Application Of HB 1723

By discriminating against the firms that employ federal contract workers, with consequent financial harm
to the United States, HB 1723 violates the principle of
intergovernmental immunity embodied in the Supremacy Clause. In enacting Section 3172(a), Congress did
not clearly and unambiguously consent to such discrimination. The court of appeals’ contrary conclusion is
profoundly wrong.

13
1. HB 1723 discriminates against the United States and
the firms that employ federal contract workers, in violation of the intergovernmental-immunity principle
of the Supremacy Clause

a. The doctrine of federal intergovernmental immunity is “almost as old as the Nation.” Dawson v.
Steager, 139 S. Ct. 698, 702 (2019). It traces its roots to
this Court’s holding in McCulloch v. Maryland, 17 U.S.
(4 Wheat.) 316 (1819), that States “have no power, by
taxation or otherwise,” to “impede, burden, or in any
manner control, the operations of the constitutional
laws enacted by Congress to carry into execution the
powers vested in the general government.” Id. at 436.
In its modern form, the intergovernmental-immunity doctrine protects the United States in two distinct
ways. First, a State may not tax or regulate “the United
States directly.” South Carolina v. Baker, 485 U.S. 505,
523 (1988). Second, while a State may tax or regulate
“private parties with whom [the federal government]
does business,” it may not “discriminate against the
United States or those with whom it deals.” Ibid.; see,
e.g., North Dakota v. United States, 495 U.S. 423, 435
(1990) (plurality opinion); id. at 444 (Scalia, J., concurring in the judgment).
Of particular relevance here, the “nondiscrimination
rule” recognizes that “a regulation imposed on one who
deals with the Government has as much potential to obstruct governmental functions as a regulation imposed
on the Government itself.” North Dakota, 495 U.S. at
437-438 (plurality opinion). Such a regulation is accordingly valid only if it is “imposed on some basis unrelated
to the object’s status as a Government contractor or
supplier”—that is, if it is “imposed equally on other similarly situated constituents of the State.” Ibid.

14
The nondiscrimination aspect of the intergovernmental-immunity doctrine reflects the structural principle that the greatest “security against the abuse” of
governmental power is the requirement that the government “act[] upon its own constituents.” McCulloch,
17 U.S. (4 Wheat.) at 428. When a State regulates those
who deal with the federal government in the same way
that it regulates similarly situated others, “there is little chance that the State will take advantage of the Federal Government.” Washington v. United States, 460
U.S. 536, 546 (1983). But that “political check against
abuse * * * is absent when the State taxes [or regulates] only a federal function.” United States v. County
of Fresno, 429 U.S. 452, 458 (1977). While a “State’s
constituents can be relied on to vote out of office any
legislature that imposes” excessive taxes or regulation
on them, they “cannot be relied upon to be similarly motivated” when the tax or regulation “is instead solely on
a federal function.” Id. at 458-459.
b. HB 1723 does exactly what the intergovernmental-immunity doctrine forbids. The statute applies exclusively to “United States department of energy Hanford site workers”—contract workers who perform services, “directly or indirectly, for the United States.”
Wash. Rev. Code Ann. § 51.32.187(1)(b). It excludes
portions of the Hanford site that are owned by the State
or leased to private entities. Id. § 51.32.187(1)(a). And
by eliminating the usual requirement that applicants for
workers’ compensation benefits establish a causal link
between their medical conditions and their employment, HB 1723 greatly expands benefits eligibility for a
specific class of federal contract workers. Although
that differential treatment benefits the individual federal contract workers covered by the statute, it

15
drastically increases the workers’ compensation costs of
the firms that employ them, with substantial adverse financial consequences for the United States. See p. 7,
supra. 2
Respondents contended below (C.A. Br. 33-37) that
HB 1723 does not impermissibly discriminate against
the federal government because Hanford federal contract workers perform uniquely dangerous tasks. A
State may treat federal contract workers differently
than state or private employees if “significant differences between the two classes justify the differential
treatment.” Dawson, 139 S. Ct. at 703 (citation and internal quotation marks omitted). If Washington were
actually distinguishing between workers who do and do
not perform hazardous duties, HB 1723 would permissibly classify “by reference to job responsibilities.” Id.
at 705. The “statute [Washington] enacted,” however,
“does not classify” in that way. Id. at 706. Instead, HB
1723’s coverage turns on whether a particular employee
is a “United States department of energy Hanford site
worker[]”—i.e., an individual at the Hanford facility
who is “engaged in the performance of work, either

As noted above, pursuant to contracts and subcontracts between
the federal government and the various firms involved, DOE pays
workers’ compensation costs directly for most of its contract workers and reimburses other firms for their workers’ compensation
costs. See p. 6, supra. Thus, under current contractual arrangements, almost all of the costs of HB 1723 will ultimately fall on DOE.
C.A. E.R. 111-113. But even if those arrangements were changed
so that the relevant private firms bore the costs of HB 1723 without
direct federal reimbursement, the statute would still violate the intergovernmental-immunity doctrine, which prohibits discrimination
against “the United States or those with whom it deals.” Baker, 485
U.S. at 523 (emphasis added).
2

16
directly or indirectly, for the United States.” Wash.
Rev. Code Ann. § 51.32.187(1)(b).
Washington’s failure to apply HB 1723 to similarly
situated Hanford workers vividly illustrates the discrimination. HB 1723 does not apply to employees of
the private company Perma-Fix Northwest—which is
adjacent to the Hanford site—who “do many of the
same types of hazardous jobs Hanford [federal contract
workers] do, including handling and packaging radioactive” waste. C.A. E.R. 74. HB 1723 also does not apply
to employees at the private company US Ecology—
which is located within the Hanford site—who “do the
type of work done by federal contractors at Hanford,”
including “dispos[ing] of low-level radioactive waste.”
Ibid.; see App., infra, 88a-89a (maps of the Hanford
site). And HB 1723 does not apply to Washington state
employees who regularly “conduct inspections throughout the cleanup areas” at Hanford, including the portions of the facility where radioactive waste is present.
C.A. E.R. 75; see id. at 75-76.
HB 1723’s discriminatory effects are particularly
acute because the law excludes private and state workers who perform hazardous duties at Hanford, while
covering federal-contract-worker “administrative assistants, secretaries, lawyers, risk assessors, accountants,
and other professionals,” who “do not enter hazardous
waste sites or radiological areas during the course of
their employment.” C.A. E.R. 71. And as noted, HB
1723 applies to every federal contract worker who has
worked a single eight-hour shift at any time in Hanford’s history. Wash. Rev. Stat. Ann. § 51.32.187(1)(b).
Thus, rather than providing especially generous coverage for workers who perform hazardous duties, without
regard to the identities of their employers, HB 1723

17
imposes “blatant facial discrimination against the Federal Government.” App., infra, 39a (Collins, J., dissenting from denial of rehearing en banc).
2. Section 3172(a) does not clearly and unambiguously
authorize the application of HB 1723

The Ninth Circuit panel did not accept respondents’
contention that HB 1723 is nondiscriminatory. To the
contrary, the panel recognized that HB 1723 would “violate the doctrine of intergovernmental immunity” unless Congress had provided “ ‘clear and unambiguous’
authorization” for its application to federal facilities.
App., infra, 3a, 9a (quoting Goodyear Atomic, 486 U.S.
at 180). The only federal law that respondents suggest
could provide such authorization is 40 U.S.C. 3172(a).
Section 3172(a), however, does not authorize—let alone
clearly and unambiguously authorize—the application
to federal facilities of state workers’ compensation laws
that discriminate against the United States or the firms
that employ federal contract workers.
a. Section 3172 is titled “Extension of state workers’
compensation laws to buildings, works, and property of
the Federal Government.” Subsection (a), titled “Authorization of Extension,” provides:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and
awards of the authority may apply the laws to all land
and premises in the State which the Federal Government owns or holds by deed or act of cession, and to
all projects, buildings, constructions, improvements,
and property in the State and belonging to the Government, in the same way and to the same extent as
if the premises were under the exclusive jurisdiction

18
of the State in which the land, premises, projects,
buildings, constructions, improvements, or property
are located.
40 U.S.C. 3172(a).
Nothing in that statutory language suggests that
States may apply workers’ compensation laws that discriminate against the federal government. The most
natural way for a State to treat a federal facility “as if ”
it were on non-federal land is to “apply” to the federal
facility the same workers’ compensation laws that apply
to non-federal facilities. 40 U.S.C. 3172(a). Thus, if a
state workers’ compensation law applies equally to all
private employees, that law could be applied to federal
contract workers at the federal facility. And if a State
has a special workers’ compensation provision for employees who perform particularly hazardous duties, see,
e.g., Wash. Rev. Code Ann. § 51.32.185 (creating distinctive rules applicable to firefighters), that provision
could be applied to federal contract workers who perform those duties at the federal facility. Section 3172(a)
thus strikes a familiar balance between protecting federal prerogatives and allowing States to regulate conduct within their borders “with an even hand.” Dawson,
139 S. Ct. at 703; see, e.g., Travis v. Reno, 163 F.3d 1000,
1002 (7th Cir. 1998) (Easterbrook, J.) (describing the
“rule of nondiscrimination, under which * * * one government may tax (or regulate) another’s trading partners only to the extent it imposes equivalent burdens on
those who do business with private citizens”), cert. denied, 528 U.S. 1114 (2000).
For several decades, courts of appeals have embraced that common-sense understanding of Section
3172(a) and its statutory predecessor. See, e.g., Roelofs
v. United States, 501 F.2d 87, 93 (5th Cir. 1974)

19
(explaining that the statute “assure[s] privately-employed workers on Federal projects equal treatment
with other industrial laborers in the state”), cert. denied, 423 U.S. 830 (1975). This Court’s decision in Goodyear Atomic reflects the same understanding. There,
the Court considered whether Section 3172(a)’s materially identical predecessor authorized application to a
federal facility of an Ohio workers’ compensation law
that provided supplemental awards for injuries resulting from employers’ safety violations. 486 U.S. at 180183. The Court held that “the phrase ‘workmen’s compensation laws’ ” in Section 3172(a)’s predecessor encompassed “the additional-award provision in Ohio’s
workers’ compensation law.” Id. at 183. The Court observed that the “plain language” of the statute “places
no express limitation on the type of workers’ compensation scheme that is authorized.” Id. at 183, 186. Instead, the Court explained, the statute “compels the
same workers’ compensation award for an employee injured at a federally owned facility as the employee
would receive if working for a wholly private facility.”
Id. at 183-184; accord id. at 185 (“Congress intended
Ohio’s law and others of its ilk * * * to apply to federal
facilities ‘to the same extent’ that they apply to private
facilities within the State”).
That authoritative construction of the statute precludes application of a state workers’ compensation law
that, like HB 1723, “appl[ies] uniquely to the workers of
those with whom the Federal Government deals.” App.,
infra, 10a. By definition, such a law does not provide
“the same workers’ compensation award for an employee injured at a federally owned facility as the employee would receive if working for a wholly private facility.” Goodyear Atomic, 486 U.S. at 183-184. Reading

20
Section 3172(a) to authorize application of such a state
law is thus flatly contrary to Goodyear Atomic.
b. The history of Section 3172(a) reinforces the most
natural understanding of the statutory text. Congress
enacted Section 3172(a)’s predecessor in response to
this Court’s holding in Murray v. Gerrick & Co., 291
U.S. 315 (1934), “that state workers’ compensation laws
may not be applied at all in areas under the exclusive
jurisdiction of the Federal Government.” Goodyear
Atomic, 486 U.S. at 193-194 (White, J., dissenting) (describing the undisputed background of the statute).
“The purpose of the bill” was to prevent “workers employed on federal projects” from being “deprived of the
benefits of [workers’ compensation] coverage purely because of an oddity of location.” Id. at 194.
In particular, the House Report accompanying the
legislation observed that workers building the Golden
Gate Bridge would be excluded from California’s workers’ compensation scheme under Murray v. Gerrick, because some of the construction had taken place on federal land. H.R. Rep. No. 2656, 74th Cong., 2d Sess. 1
(1936). The law that became Section 3172(a) “fill[ed
that] conspicuous gap” by allowing States to apply their
workers’ compensation regimes to federal property.
S. Rep. No. 2294, 74th Cong., 2d Sess. 1 (1936). But
there is no hint in the statutory text, history, or purpose
that Congress—in authorizing application of state
workers’ compensation laws to federal facilities “in the
same way and to the same extent as if the” facilities
were on non-federal land—authorized discrimination
against the United States or the firms that employ federal contract workers. 40 U.S.C. 3172(a) (emphasis
added). Indeed, in the 85 years since the enactment of
Section 3172(a)’s predecessor, it does not appear that

21
any State or court (other than those in this litigation)
has understood the statute to have that effect.
c. At a minimum, Section 3172(a) does not provide
the “clear and unambiguous” authorization necessary to
waive the United States’ intergovernmental immunity
from discrimination against itself or those with whom it
deals. App., infra, 9a (quoting Goodyear Atomic, 486
U.S. at 180). The requirement of clear and unambiguous authorization follows from the settled principle that
“[w]aivers of immunity must be construed strictly in favor of the sovereign.” United States Dep’t of Energy v.
Ohio, 503 U.S. 607, 615 (1992) (citation and internal quotation marks omitted); see, e.g., Hancock v. Train, 426
U.S. 167, 178-180 (1976) (applying that principle to federal intergovernmental immunity).
A federal law does not contain the clear and unambiguous statement required for a waiver of governmental immunity if “it is plausible to read the statute” in
another way. FAA v. Cooper, 566 U.S. 284, 299 (2012).
As explained above, the most natural reading of Section
3172(a)—and the one this Court adopted in Goodyear
Atomic—is that the statute permits application of state
workers’ compensation laws “to federal facilities ‘to the
same extent’ that they apply to private facilities within
the State.” 486 U.S. at 185. By construing Section
3172(a) to authorize differential treatment of the federal government, the court of appeals read that provision “to mean the exact opposite of what its words” and
this Court’s “directly controlling” decision “say.” App.,
infra, 40a (Collins, J., dissenting from denial of rehearing en banc). At the very least, the construction that
the court below adopted is not one that “the statutory
text clearly requires.” Cooper, 566 U.S. at 299.

22
3. The court of appeals’ construction of Section 3172(a)
is mistaken

The court of appeals panel held that Section 3172(a)
clearly and unambiguously authorizes Washington to
apply a workers’ compensation law that discriminates
against the United States and the firms with which it
deals. None of the reasons offered by the panel supports that counterintuitive reading.
a. The crux of the panel’s reasoning, amplified by
Judge Smith in his opinion concurring in the denial of
rehearing en banc, is that Section 3172(a) authorizes a
State to apply to a federal facility any workers’ compensation scheme that the State could apply to non-federal
workers at a non-federal facility in the State. App., infra, 16a-18a; see id. at 25a (Smith, J., concurring in the
denial of rehearing en banc). Thus, in the panel’s view,
Section 3172(a) authorizes application of HB 1723’s provisions singling out the United States and its contractors for disparate treatment because “Washington
could enforce a version of HB 1723 that did not involve
the Federal Government and where the Hanford site
were a state project.” Id. at 73a (amended panel opinion); see id. at 18a (initial panel opinion); id. at 25a
(Smith, J., concurring in the denial of rehearing en
banc). That analysis is flawed in multiple respects.
i. First, by looking to hypothetical rather than actual state workers’ compensation laws, the panel’s reading departs from the text of Section 3172(a). Section
3172(a) does not define the powers of the state legislature (or of the state government generally) to enact or
adopt new workers’ compensation laws. Rather, Section 3172(a) is addressed to “[t]he state authority
charged with enforcing and requiring compliance with
the state workers’ compensation laws.” 40 U.S.C.

23
3172(a). The only “state workers’ compensation laws”
that such administrative officials can “enforc[e] and requir[e] compliance with” are laws that the State has actually adopted. Consistent with that understanding,
Section 3172(a) permits the responsible state authority
to “apply” those laws to federal facilities “in the same
way and to the same extent as if the premises were under the exclusive jurisdiction of the State.” 40 U.S.C.
3172(a). That language reflects a focus on the workers’
compensation regime that actually governs benefits determinations for employees at non-federal facilities
within a particular State, not on the hypothetical laws
that the State might adopt.
In reaching a contrary result, the panel relied heavily on the phrase “as if the premises were under the exclusive jurisdiction of the State.” 40 U.S.C. 3172(a); see
App., infra, 16a-18a; see also id. at 24a-29a (Smith, J.,
concurring in the denial of rehearing en banc). The
panel read that language to mean that “the States” may
exercise the same “broad authority to enact [workers’
compensation] laws” governing federal facilities that
they possess to enact similar laws governing non-federal lands. Id. at 17a. As explained above, however,
Section 3172(a) specifically addresses the powers not of
state legislatures, but of the state administrative officials who “enforc[e] and requir[e] compliance with” existing workers’ compensation laws. The power to “apply” state law that those officials would possess “if the
premises were under the exclusive jurisdiction of the
State,” 40 U.S.C. 3172(a), does not include the power to
promulgate new workers’ compensation laws to govern
federal facilities alone.
For similar reasons, the panel’s construction is inconsistent with the Goodyear Atomic Court’s under-

24
standing that, under the language of Section 3172(a)’s
materially identical predecessor, “an employee injured
at a federally owned facility” would receive the same
workers’ compensation award “as the employee would
receive if working for a wholly private facility.” 486
U.S. at 184. The panel’s interpretation likewise has no
foundation in the history of the statute. As explained
above, Congress enacted Section 3172’s predecessor to
ensure that federal contract workers on federal property would be covered by the otherwise-applicable state
workers’ compensation scheme—not by a new law created exclusively for them. See p. 20, supra.
ii. Even if Section 3172(a) used as its benchmark the
hypothetical workers’ compensation laws that a State
could adopt, HB 1723 would be invalid. HB 1723 does
not simply mandate differential treatment between
workers at the Hanford facility and workers in other
parts of Washington. Rather, even among Hanford
workers, HB 1723 applies only to “United States department of energy Hanford site workers,” Wash. Rev.
Code Ann. § 51.32.187(1)(b), not to the state and private
employees who perform similar functions at that location. Thus, even with respect to the various categories
of individuals who work at or around the Hanford facility (see p. 4, supra), HB 1723 “discriminate[s] against
the United States or those with whom it deals.” Baker,
485 U.S. at 523. Washington could not permissibly apply such a regime even on non-federal lands.
The panel found it “[c]ritical[]” that the United
States had “conceded during oral argument that Washington could enforce a version of HB 1723 that did not
involve the Federal Government and where the Hanford site were a state project.” App., infra, 73a (emphasis added); see id. at 25a (Smith, J., concurring in the

25
denial of rehearing en banc); see also Resp. C.A. Br. 19
(contending that, under Section 3172(a), the operative
“question is * * * how the State could regulate [the
facility] if the federal government were taken ‘out of
it’ ”) (citation omitted). But the evident import of that
government concession was simply that, if Washington
were cleaning up radioactive waste at a state facility
without using federal workers, so that no question of intergovernmental immunity was implicated, there would
be no constitutional barrier to the State’s elimination of
usual causation requirements in determining eligibility
for workers’ compensation benefits. That concession
does not imply that disparate treatment of federal and
non-federal workers at a hypothetical state facility
would likewise be permissible.
b. The court of appeals panel offered several other
rationales to support its interpretation of Section
3172(a). See App., infra, 10a-16a. None is persuasive.
i. The panel relied on this Court’s statement in
Goodyear Atomic that Section 3172(a)’s materially
identical statutory predecessor “places no express limitation on the type of workers’ compensation scheme
that is authorized.” 486 U.S. at 183; see App., infra,
10a-13a. As explained above, however, the Court made
that statement in holding that the term “workmen’s
compensation laws” in Section 3172(a)’s predecessor extended beyond “typical” workers’ compensation schemes,
under which injured employees’ benefits awards are
calculated “without regard to the employer’s fault,” to
encompass regimes that authorize enhanced awards for
injuries arising from employers’ safety violations. 486
U.S. at 183. The Ohio workers’ compensation scheme at
issue in Goodyear Atomic applied equally to all facilities
in the State. See id. at 177. Nothing in the Goodyear

26
Atomic Court’s analysis suggests that Section 3172(a)
would permit a State to adopt and apply workers’ compensation rules that discriminate against the federal
government. To the contrary, the Court’s statement
that Section 3172(a)’s predecessor “compels the same
workers’ compensation award for an employee injured
at a federally owned facility as the employee would receive if working for a wholly private facility,” id. at 183184, reflects the opposite understanding. See p. 19, supra.
ii. The panel’s reliance (see App., infra, 13a-15a) on
the Ninth Circuit’s prior decision in United States v.
Lewis County, 175 F.3d 671, cert. denied, 528 U.S. 1018
(1999), is likewise misplaced. The question in Lewis
County was whether a state property tax that applied
to federal and private farmland, but not to state and local farmland, was permissible under a federal law that
authorized States to tax federal farmland “in the same
manner and to the same extent as other property is
taxed.” 7 U.S.C. 1984. The Lewis County panel held
that the tax did not impermissibly discriminate against
the federal government because (1) it was imposed on
all farmland except state and local farmland, and (2) requiring state and local governments to “engage in a circular process of taxing themselves” would serve no useful purpose. 175 F.3d at 676. The panel also noted that
the State’s imposition of the tax “on privately-owned
farmland in general” provided “a political check against
excessive taxation.” Ibid.
Unlike the state tax law at issue in Lewis County,
HB 1723 does not apply to “privately-owned [land]” or
to private employees “in general,” 175 F.3d at 676, but
only to “United States department of energy Hanford
site workers,” Wash. Rev. Code Ann. § 51.32.187(1)(b).

27
HB 1723 therefore does not provide a “political check”
against discriminatory or excessive regulation of federal facilities. Lewis County, 175 F.3d at 676. Nor is
there any pointless-circularity justification (or any
other valid rationale) for exempting state employees
from HB 1723. See ibid. Nothing in Lewis County suggests that a State may target federal operations in the
manner that HB 1723 prescribes.
iii. The panel cited two other federal statutes that it
viewed as prohibiting discrimination against the federal
government more clearly than does Section 3172(a).
App., infra, 15a-16a & n.7; see 4 U.S.C. 111(a) (authorizing States to tax the “pay or compensation” of federal
officers and employees “if the taxation does not discriminate against the officer or employee because of the
source of the pay or compensation”); 42 U.S.C.
9620(a)(4) (waiving the federal government’s immunity
from certain state environmental standards or requirements, but specifying that the waiver “shall not apply”
to state standards or requirements that are “more stringent than” those that the State imposes on non-federal
facilities). The panel surmised that Congress would
have used similar language in Section 3172(a) if it had
intended to foreclose state laws like HB 1723. See App.,
infra, 15a, 16a. That analysis is misconceived.
It is not apparent that the language used in those
statutes prohibits discrimination against federal actors
any more clearly than does Section 3172(a), which authorizes state enforcement personnel to apply workers’
compensation laws to federal facilities only “in the same
way and to the same extent as if the premises were under the exclusive jurisdiction of the State.” But even if
Section 3172(a) is viewed as less explicit on this point
than the statutes cited by the panel, that does not mean

28
that Section 3172(a) clearly and unambiguously authorizes discrimination, as is necessary for a waiver of
intergovernmental immunity. See Goodyear Atomic,
486 U.S. at 180. As the dissenting judges below succinctly explained, the panel’s analysis “flips the governing canon of construction on its head.” App., infra, 55a.
B. This Court’s Review Is Warranted

The Ninth Circuit’s error warrants this Court’s review. The panel’s construction of Section 3172(a) conflicts with this Court’s interpretation of materially identical statutory language in Goodyear Atomic. See Sup.
Ct. R. 10(c). And the panel’s decision implicates fundamental constitutional principles, exposes the United
States to substantial costs, and provides a roadmap for
even more sweeping discrimination against the federal
government. All of those grounds support this Court’s
intervention.
1. The court of appeals’ decision is inconsistent with
the understanding of Section 3172(a)’s materially identical statutory predecessor that this Court expressed in
Goodyear Atomic. As explained above, the Goodyear
Atomic Court read that prior law to “compel[] the same
workers’ compensation award for an employee injured
at a federally owned facility as the employee would receive if working for a wholly private facility.” 486 U.S.
at 183-184. HB 1723 does not provide “the same workers’ compensation award for an employee injured at a
federally owned facility as the employee would receive
if working for a wholly private facility,” ibid., because
the only employees covered by HB 1723 are “United
States department of energy Hanford site workers,”
Wash. Rev. Code Ann. § 51.32.187(1)(b). Under a
straightforward application of this Court’s decision in
Goodyear Atomic, the court of appeals was thus “un-

29
ambiguously required * * * to strike down the Washington statute.” App., infra, 40a (Collins, J., dissenting
from denial of rehearing en banc).
The court of appeals viewed this Court’s decision in
Goodyear Atomic as supporting the panel’s position.
See App., infra, 10a-13a; see also id. at 30a-33a (Smith,
J., concurring in the denial of rehearing en banc). As
explained above, the panel’s affirmative reliance on
Goodyear Atomic rests on a “flagrant misreading of ”
this Court’s decision. Id. at 46a (Collins, J., dissenting
from denial of rehearing en banc); see pp. 25-26, supra.
At a minimum, the sharp dispute about the meaning of
the Court’s leading precedent in this area of law illustrates the need for further review.
2. The question presented is sufficiently important
that it would warrant this Court’s review even in the absence of a direct conflict.
a. The principle of intergovernmental immunity is
central to the structure of the federal system. See, e.g.,
McCulloch, 17 U.S. (4 Wheat) at 427. HB 1723’s imposition of increased costs on the United States and the
firms that directly employ federal contract workers embodies precisely the “mistreatment of the Federal Government against which the Supremacy Clause protects.” Washington, 460 U.S. at 542. The panel’s holding that Congress “greenlighted such open and explicit
discrimination against the Federal Government” is an
“astonishing” and “unprecedented” result. App., infra,
38a-39a (Collins, J., dissenting from denial of rehearing
en banc). Indeed, “[u]ntil the panel’s opinion in this
case, no federal court in the more than 200 years since
Chief Justice John Marshall’s landmark decision in
McCulloch v. Maryland, has ever upheld a state statute
that explicitly strikes at the Federal Government in the

30
sort of extraordinary and egregious way that Washington has done here.” Id. at 38a (citation omitted). That
profound error on a matter of exceptional importance
warrants this Court’s review.
b. The financial stakes for the federal government
are substantial. HB 1723 already applies to at least
100,000 federal contract workers who have performed
services at the Hanford site since 1943, and the Hanford
cleanup is expected to last “at least six more decades.”
App., infra, 2a; see id. at 7a. By creating a presumption
of workplace connection for a wide range of common
diseases—a presumption that is triggered by a single
eight-hour shift at Hanford and applies throughout a
worker’s lifetime (and that may be invoked by a covered
worker’s survivors after the worker’s death)—HB 1723
lays the groundwork for extensive liability.
In the year after HB 1723 took effect, the number of
cancer claims received by DOE jumped from a historical average of five per year to more than 50. C.A. E.R.
134. A total of 92 claims that year invoked the HB 1723
presumption. Ibid. While almost all those claims would
previously have been denied, 31 of the first 41 that DOE
processed were submitted stating that the claim met the
requirements of HB 1723, and the State approved eight
of the ten claims that DOE recommended for denial.
Ibid. In 2019, Washington amended HB 1723 to eliminate the requirement of a pre-employment medical examination for certain cancer claims. See House Bill
1490, 66th Leg., Regular Sess. (Wash Rev. Code Ann.
§ 51.32.187(4)(a)). And under the Ninth Circuit’s decision, nothing stops the State from further increasing
this discriminatory burden on the federal government.
Although estimating the total cost is “extremely difficult,” C.A. E.R. 133, the Washington Department of

31
Labor and Industries has projected that at least 4000
new claims will be filed seeking retroactive application
of HB 1723, see id. at 103. Many of those will be complex claims, the costs of which “could easily exceed a
million dollars per claim.” Id. at 134. And thousands
more claims likely will be filed in the future, potentially
continuing into the 22nd century.
c. The implications of the Ninth Circuit’s decision
extend well beyond the Hanford site. Section 3172(a)
applies broadly to “all [federal] land and premises” and
to “all [federal] projects, buildings, constructions, improvements, and property” in a State. The panel’s holding thus provides States throughout the Ninth Circuit
with “carte blanche to impose whatever special workers’
compensation rules they want on the United States and
its contractors.” App., infra, 39a (Collins, J., dissenting
from denial of rehearing en banc). The federal properties potentially affected by such a rule include military
bases, national parks, DOE laboratories and nuclear
sites, and numerous other facilities where federal contract workers perform arguably hazardous tasks. See,
e.g., DOE, Cleanup Sites, https://www.energy.gov/em/
cleanup-sites (map showing DOE cleanup sites); U.S.
Army Corps of Engineers, Formerly Used Defense Sites,
https://www.usace.army.mil/Missions/Environmental/
Formerly-Used-Defense-Sites/FUDS-GIS/House (map
showing formerly used defense sites, many of which are
subject to cleanup). The prospect that other States will
target federal operations for similar discrimination
counsels in favor of this Court’s review.
In addition, other federal statutes include similar
language allowing States to apply their own laws to the
federal government or federal contract workers “in the
same way and to the same extent” as the law is applied

32
to others. See, e.g., 49 U.S.C. 5126 (providing that “person[s] under contract with” the federal government to
transport hazardous materials are subject to state regulation “in the same way and to the same extent that
any person” is regulated); 16 U.S.C. 835c-1(b) (authorizing state taxation of lands acquired by the United
States as part of the Columbia Basin Project “in the
same manner and to the same extent as privately owned
lands of like character”). The Ninth Circuit’s reasoning
implies that those statutes too would permit application
of state laws that discriminate against the United
States. Those “very sweeping implications” of the panel
decision, App., infra, 56a (Collins, J., dissenting from
denial of rehearing en banc), provide a further reason
for this Court to grant review.
CONCLUSION

The petition for a writ of certiorari should be granted.
Respectfully submitted.
BRIAN H. FLETCHER
Acting Solicitor General
BRIAN M. BOYNTON
Acting Assistant Attorney
General
MALCOLM L. STEWART
Deputy Solicitor General
CHRISTOPHER G. MICHEL
Assistant to the Solicitor
General
MARK B. STERN
JOHN S. KOPPEL
Attorneys

SEPTEMBER 2021

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-35673
D.C. No. 4:18-cv-05189-SAB
UNITED STATES OF AMERICA, PLAINTIFF-APPELLANT
v.
STATE OF WASHINGTON; JAY ROBERT INSLEE, IN HIS
OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
WASHINGTON; JOEL SACKS, IN HIS OFFICIAL CAPACITY
AS DIRECTOR OF THE WASHINGTON STATE
DEPARTMENT OF LABOR AND INDUSTRIES;
WASHINGTON STATE DEPARTMENT OF LABOR &
INDUSTRIES, DEFENDANTS-APPELLEES
Argued and Submitted: July 6, 2020
Seattle, Washington
Filed: Aug. 19, 2020
Appeal from the United States District Court
for the Eastern District of Washington
Stanley Allen Bastian, District Judge, Presiding
OPINION

(1a)

2a
Before: RICHARD R. CLIFTON and MILAN D. SMITH,
JR., Circuit Judges, and JAMES DONATO,* District Judge.
Opinion by Judge MILAN D. SMITH, JR.
M. SMITH, Circuit Judge:
The Hanford site is a decommissioned federal nuclear production site that sprawls over more than five
hundred square miles in southeastern Washington
State. While active between 1944 and 1989, the Hanford site produced nearly two-thirds of the nation’s
weapons grade plutonium for use in the United States
nuclear program during World War II and the Cold
War. The site also generated significant amounts of
highly radioactive and chemically hazardous waste.
The United States Department of Energy (DOE) has
overseen cleanup of the Hanford site since 1989, primarily relying on private contractors and subcontractors to
perform the actual cleanup work. These cleanup operations are expected to last for at least six more decades.
Employees of private contractors working on federal
land, like the employees of the DOE contractors who
work at the Hanford site, may pursue state workers’
compensation claims. 40 U.S.C. § 3172; Wash. Rev.
Code § 51.12.060. The DOE has chosen to insure such
claims for most of its contractors at the Hanford site.
In 2018, Washington amended its workers’ compensation scheme by enacting HB 1723, a law that applies only
to Hanford site workers who work directly or indirectly
for the United States. 2018 Wash. Sess. Laws 226 (cod-

The Honorable James Donato, United States District Judge for
the Northern District of California, sitting by designation.
*

3a
ified at Wash. Rev. Code § 51.32.187). HB 1723 establishes for these workers, inter alia, a presumption that
certain conditions and cancers are occupational diseases, which is rebuttable by only clear and convincing
evidence. Wash. Rev. Code § 51.32.187(2)(a), (b).
Concerned about “heightened liability,” the United
States sued Washington 1, claiming that HB 1723 impermissibly directly regulates and discriminates against
the Federal Government and those with whom it deals
in violation of the doctrine of intergovernmental immunity. The district court granted summary judgment for
Washington, pursuant to a congressional waiver of immunity that authorizes the States to apply their workers’ compensation laws to “all” federal land and projects
in the states “in the same way and to the same extent as
if the premises were under the exclusive jurisdiction of
the State[.]” 40 U.S.C. § 3172. The United States appeals. We hold that HB 1723 falls within § 3172’s
waiver and, thus, does not violate the doctrine of intergovernmental immunity. We, therefore, affirm.
FACTUAL AND PROCEDURAL BACKGROUND
I.

Factual Background
A.

The Hanford Site Cleanup

The Hanford site cleanup is, in the DOE’s words, “unprecedented in its scale and complexity.” The liquid
waste that the site generated—over fifty million gallons
—is stored in 177 underground holding tanks, most of
1
The Defendants are the State of Washington, Washington Governor Jay Inslee, the Washington State Department of Labor and
Industries (DLI), and DLI Director Joel Sacks. We refer collectively to them as “Washington” and “the State.”

4a
which are over seven decades old. The site also produced 270 billion gallons of contaminated groundwater,
twenty-five million cubic feet of buried or stored solid
waste, 2,300 tons of spent nuclear fuel, and twenty tons
of plutonium bearing materials. There are roughly
10,000 DOE contractor employees at the Hanford site,
some of whom perform the cleanup operations. Individuals working at the Hanford site cleanup operations
face exposure to radioactive substances and hazardous
chemicals.
B.

Washington’s Workers’ Compensation Scheme

The Washington Industrial Insurance Act (WIIA) is
the State’s workers’ compensation and industrial insurance regime. See Wash. Rev. Code § 51.04.10 et seq.
The WIIA establishes a statutory mechanism for workers that have suffered injury or contracted an “occupational disease,” id. § 51.08.140, caused by their employment to seek compensation through an award of benefits. Dennis v. Dep’t of Labor & Indus. of State of
Wash., 745 P.2d 1295, 1301 (Wash. 1987).
Since 1937, the WIIA has covered employees of private contractors who work on federal land located in the
state. See An act relating to workmen’s compensation,
ch. 147, 1937 Wash. Sess. Laws 525 (codified as amended
at Wash. Rev. Code § 51.12.060). 2 The State extended

In its present form, Washington Revised Code § 51.12.060 provides that:
2

The application of this title and related safety laws is hereby
extended to all lands and premises owned or held by the United
States of America, by deed or act of cession, by purchase or
otherwise, which are within the exterior boundaries of the

5a
its workers’ compensation laws to the employees of
federal contractors following the enactment of 40 U.S.C.
§ 290, the former federal law that authorized states to
apply their workers’ compensation laws to federal land
and projects located within the state. 3 Wash. Rev.
Code § 51.12.060. Thus, employees of DOE contractors and subcontractors at the Hanford site may pursue

3

state of Washington, and to all projects, buildings, constructions, improvements, and property belonging to the United
States of America, which are within the exterior boundaries of
the state, in the same way and to the same extent as if said
premises were under the exclusive jurisdiction of the state, and
as fully as is permitted under the provisions of that act of the
congress of the United States approved June 25, 1936, granting to the several states jurisdiction and authority to apply
their state workers’ compensation laws on all property and
premises belonging to the United States of America, . . .
PROVIDED, That this title shall not apply to employees of the
United States of America.
Section 290 provided, in relevant part, that:
[W]hatsoever constituted authority of each of the several States is
charged with the enforcement of and requiring compliances
with the State workmen’s compensation laws of said States and
with the enforcement of and requiring compliance with the orders, decisions, and awards of said constituted authority of said
States shall have the power and authority to apply such laws
to all lands and premises owned or held by the United States
of America by deed or act of cession, by purchase or otherwise,
which is within the exterior boundaries of any State and to all
projects, buildings, constructions, improvements, and property belonging to the United States of America, which is within
the exterior boundaries of any State, in the same way and to
the same extent as if said premises were under the exclusive
jurisdiction of the State within whose exterior boundaries such
place may be.

Act of June 25, 1936, ch. 822, 49 Stat. 1938.

6a
state workers’ compensation claims. The WIIA, however, does not cover DOE’s own employees. Id.
In 1997, Washington amended the WIIA to permit
the DLI to approve, upon the request of the United
States Secretary of Defense or the Secretary of the
DOE, “special insuring agreements providing industrial
insurance coverage for workers engaged in the performance of work, directly or indirectly, for the United
States regarding projects and contracts at the Hanford
Nuclear Reservation.” 1997 Wash. Sess. Laws 573
(codified at Wash. Rev. Code § 51.04.130). The DOE
has paid the benefits awards and administrative costs of
workers’ compensation claims for the employees of
many of its contractors and subcontractors pursuant to
contractual obligations as well as pursuant to memoranda of understanding (MOU) with the State. The
DOE and Washington entered into the most recent
MOU after Washington enacted HB 1723. Private contractors not covered by an MOU provide workers’ compensation coverage through the State workers’ compensation fund or as self-insurers.
C.

HB 1723

This case concerns HB 1723’s amendments to the
WIIA. The law applies to “United States department
of energy Hanford site workers” and “Hanford site
workers,” defined as:
[A]ny person, including a contractor or subcontractor, who was engaged in the performance of work, either directly or indirectly, for the United States, regarding projects and contracts at the Hanford nuclear site and who worked on the site at the two hun-

7a
dred east, two hundred west, three hundred area, environmental restoration disposal facility site, central
plateau, or the river corridor locations for at least one
eight-hour shift while covered under this title.”
Wash. Rev. Code § 51.32.187(1)(b). 4 It is estimated
that the law may cover some 100,000 persons.
HB 1723 creates a “prima facie presumption” for
“United States [DOE] Hanford site workers” that certain “diseases and conditions” are “occupational diseases” under the WIIA. Id. § 51.32.187(2)(a); see also id.
§§ 51.32.187(3) (identifying certain conditions), 51.32.187(4)
(specifying the requirements for and application of the
presumption to certain cancers). An employer may rebut the presumption by “clear and convincing evidence,”
which includes the “use of tobacco products, physical fitness and weight, lifestyle, hereditary factors, and exposure from other employment or nonemployment activities.” Id. § 51.32.187(2)(b). The presumption applies
“following termination of service for the lifetime of ” a covered worker. Id. § 51.32.187(5)(a). A covered worker or
the survivor of a deceased covered worker may refile a
previously denied claim. Id. § 51.32.187(5)(b). In addition, a claimant may recover reasonable costs, including
attorney’s fees, in any appeal that results in a benefits
award when the presumption applies. Id. § 51.32.187(6).

4
“Hanford nuclear site” and “Hanford site” are defined to mean
“the approximately five hundred sixty square miles in southeastern
Washington state” excluding certain leased lands, state-owned lands,
and lands owned by the Bonneville Power Administration, which is
owned by the United States[.]” Wash. Rev. Code § 51.32.187(1)(a).

8a
II. The District Court Proceedings

The United States brought suit for declaratory and
injunctive relief against Washington, claiming that HB
1723 discriminates against the Federal Government and
directly regulates it in violation of the doctrine of intergovernmental immunity. On cross motions, the district court granted summary judgment for the State.
The court reasoned that 40 U.S.C. § 3172’s waiver of immunity permits the State “to use the same power it possesses to craft workers compensation laws for nonfederal employees to address injured employees on federal
land,” including “the ability to legislate, in a piecemeal
fashion, to address specific risks to employees in specific
industries.” The United States timely appealed.
JURISDICTION AND STANDARD OF REVIEW

We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review de novo a district court’s decision on cross
motions for summary judgment. Empire Health Found.
v. Azar, 958 F.3d 873, 882 (9th Cir. 2020). Statutory interpretation is a question of law that we review de novo.
Comcast of Sacramento I, LLC v. Sacramento Metro. Cable TV Comm’n, 923 F.3d 1163, 1168 (9th Cir. 2019).
ANALYSIS
I.

The Doctrine of Intergovernmental Immunity

The United States’ claims against Washington invoke
the doctrine of intergovernmental immunity. That
doctrine “derive[s] from the Supremacy Clause of the
Federal Constitution, U.S. Const., art. VI, which mandates that ‘the activities of the Federal Government are
free from regulation by any state.’ ” United States v.
California, 921 F.3d 865, 878 (9th Cir. 2019) (quoting

9a
Boeing Co. v. Movassaghi, 768 F.3d 832, 839 (9th Cir.
2014)), cert. denied, — S. Ct. —, 2020 WL 3146844 (U.S.
June 15, 2020). The doctrine traces its origins to “the
Supreme Court’s decision in McCulloch v. Maryland,
which established that ‘the states have no power, by taxation or otherwise, to retard, impede, burden, or in any
manner control, the operations of the constitutional laws
enacted by congress to carry into execution the powers
vested in the general government.’ ” U.S. v. City of Arcata, 629 F.3d 986, 991 (9th Cir. 2010) (quoting McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 436 (1819)).
Pursuant to the doctrine, “state laws are invalid if they
‘regulate[] the United States directly or discriminate [ ]
against the Federal Government or those with whom it
deals.’ ” Boeing, 768 F.3d at 839 (quoting North Dakota
v. United States, 495 U.S. 423, 435 (1990) (plurality decision)). This is so “unless Congress provides ‘clear and
unambiguous’ authorization for such regulation.” Goodyear Atomic Corp. v. Miller, 486 U.S. 174, 180 (1988)
(quoting EPA v. State Water Res. Control Bd., 426 U.S.
200, 211 (1976)) (emphasis added).
By its terms, HB 1723 is a state workers’ compensation law that applies only to individuals who perform
work at the Hanford site “directly or indirectly, for the
United States.” Wash. Rev. Code § 51.32.187(1)(b).
Both sides agree that § 3172 waives the Federal Government’s immunity from state workers’ compensation
laws. Our understanding of § 3172’s predecessor statute would support that conclusion. See Begay v. KerrMcGee Corp., 682 F.2d 1311, 1319 (9th Cir. 1982) (concluding that 40 U.S.C. § 290 “unambiguously permits application of state workers’ compensation laws to all
United States territory within the state.”). The United

10a
States and Washington disagree, however, about whether § 3172 permits workers’ compensation laws that apply uniquely to the workers of those with whom the Federal Government deals. Our resolution of § 3172’s scope
will determine whether HB 1723 falls within the waiver
and, thus, whether HB 1723 violates the doctrine of intergovernmental immunity.
II. Section 3172’s Waiver of Immunity Encompasses HB
1723

To ascertain § 3172’s scope, we “begin[] with the plain
language of the statute.” Jimenez v. Quarterman, 555
U.S. 113, 118 (2009). “[W]e examine not only the specific provision at issue, but also the structure of the statute as a whole, including its object and policy.” United
States v. Lillard, 935 F.3d 827, 833 (9th Cir. 2019) (citation omitted). Section 3172(a) provides that:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and awards
of the authority may apply the laws to all land and
premises in the State which the Federal Government
owns or holds by deed or act of cession, and to all projects, buildings, constructions, improvements, and
property in the State and belonging to the Government, in the same way and to the same extent as if
the premises were under the exclusive jurisdiction of
the State in which the land, premises, projects, buildings, constructions, improvements, or property are
located.
40 U.S.C. § 3172(a).
We do not consider the meaning of this text on a
blank slate. In Goodyear Atomic Corp. v. Miller, the

11a
Supreme Court addressed the predecessor statute to
§ 3172. In Goodyear, a private contractor operating a
federally owned nuclear production facility challenged
an Ohio workers’ compensation law that provided a supplemental workers’ compensation award for injuries resulting from an employer’s violation of a state safety
regulation. 486 U.S. at 176. Assuming that the Ohio
law was “sufficiently akin to direct regulation . . . to
be potentially barred by the Supremacy Clause,” the
Court concluded that “§ 290 provides the requisite clear
congressional authorization for the application of the
provision to workers at the Portsmouth facility.” 5 Id.
at 182.
To arrive at that conclusion, the Court rejected the
argument raised by the private contractor and the
United States Solicitor General that the statute’s use of
the phrase “workmen’s compensation laws” was “not intended to include the additional-award provision in
Ohio’s workers’ compensation law.” Id. at 183. The
Court observed that the statute did not define the
phrase “workmen’s compensation laws.” Id. Focusing on the essential terms of the statutory text, including the phrase “in the same way and to the same extent
as if said premises were under the exclusive jurisdiction
of the State,” the Court stated unequivocally that the
statute “place[d] no express limitation on the type of
5
The United States does not explain here how HB 1723 directly
regulates the Federal Government by adopting a presumption to determine whether a given “Hanford site worker” is entitled to receive
a workers’ compensation award pursuant to the WIIA. As in Goodyear, we will assume that HB 1723 is “sufficiently akin to direct regulation” of the Federal Government to trigger the doctrine of intergovernmental immunity. 486 U.S. at 182.

12a
workers’ compensation scheme that is authorized.”
Id. (emphasis added). Rather than limiting the authorized workers’ compensation laws, the Court explained that “[o]n its face, § 290 compel[led] the same
workers’ compensation award for an employee injured
at a federally owned facility as the employee would receive if working for a wholly private facility.” Id. at
183-84.
As the United States concedes, § 3172 is materially
identical to its predecessor. 6 But the United States
homes in on the phrase “in the same way and to the same
extent” to claim that § 3172 is a “very limited waiver” of
immunity. The United States reads this text and
Goodyear as “strongly suggest[ing]” that § 3172 authorizes only the “extension of generally applicable laws,”
rather than “discrete” state laws that “single out” the
Federal Government and its contractors. We disagree.
The plain text of § 3172 does not purport to limit the
workers’ compensation laws for which it waives intergovernmental immunity to only those that are “generally applicable.” We are not free to add text to a statute that is not there. Ariz. State Bd. for Charter Sch.
There are some differences between § 3172 and its predecessor.
Unlike its predecessor, § 3172 does not refer to “workmen’s compensation laws,” but rather “workers’ compensation laws.” And, instead of providing that the state workers’ compensation authority
“shall have the power and authority to apply” workers’ compensation laws, Congress has provided that the state authority “may apply” such laws. This change signifies nothing more than that a state
may, in its discretion, opt to apply its workers’ compensation laws to
federal premises in the state. Fernandez v. Brock, 840 F.2d 622,
632 (9th Cir. 1988) (“ ‘May’ is a permissive word, and we will construe
it to vest discretionary power absent a clear indication from the context that Congress used the word in a mandatory sense.”).
6

13a
v. U.S. Dep’t of Educ., 464 F.3d 1003, 1007 (9th Cir. 2006).
Like its predecessor, § 3172 does not define the phrase
“state workers’ compensation laws” and otherwise “places
no express limitation on the type of workers’ compensation scheme that is authorized.” Goodyear, 486 U.S.
at 183 (emphasis added). The Court’s application of the
predecessor statute in Goodyear does not warrant a different reading of the statute. To be sure, the Court
considered there a state workers’ compensation law that
did not concern a particular employer, or a particular
site located in the state, like HB 1723 does. Id. at 18385. But the Court did not purport to impose the limitation on the statute that the United States seeks to impose here; indeed, the Court recognized that the statute
placed no express limitation on permissible workers’
compensation laws. Id. at 183. We cannot properly
construe § 3172 in a way that would conflict with that
understanding of a materially identical statutory provision.
Equally unavailing is the United States’ assertion
that the phrase “in the same way and to the same extent”
codifies a nondiscrimination rule that limits § 3172’s
waiver. Our decision in United States v. Lewis County,
175 F.3d 671 (9th Cir. 1999), is illustrative.
In Lewis County, we considered the application of a
federal statute that “waives the immunity of the federal
government from state taxation by authorizing state
and local governments to tax . . . property owned
by the federal Farm Service Agency (‘FSA’) ‘in the same
manner and to the same extent as other property is
taxed.’ ” Id. at 673 (quoting 7 U.S.C. § 1984). In relevant part, the United States challenged a Washington
county’s taxation of FSA-owned land. The United

14a
States argued that the county had discriminated against
a federal agency in violation of § 1984 and the doctrine
of intergovernmental tax immunity because the county
did not tax a comparable state agency. Id. at 674-75.
We rejected that argument because “Congress ha[d]
made its assessment of the federal interest in [] § 1984[.]”
Id. at 676. We explained that, by virtue of that statute,
Congress had “sufficiently qualifie[d] the intergovernmental immunity of the United States to permit the
state to make the distinction it has.” Id. We saw “no
reason why state or local governments [had to] engage
in a circular process of taxing themselves in order to impose the tax on the federal government that Congress
has authorized.” Id.
Echoing its arguments in Lewis County, the United
States argues here that HB 1723 violates the doctrine of
intergovernmental immunity because it discriminatorily
applies only to Hanford site workers who work indirectly
or directly for the Federal Government, without any application to state or private entities who perform work
on or near the Hanford site. As in Lewis County, we
are presented with a congressional waiver of immunity
that contains similar text—i.e., “in the same way and to
the same extent”—that we have already understood to
permit a “distinction” based on federal status. “A basic
principle of interpretation is that courts ought to interpret similar language in the same way, unless context
indicates that they should do otherwise.” Shirk v. United
States ex rel. Dep’t of Interior, 773 F.3d 999, 1004 (9th
Cir. 2014). The United States identifies no reason why
we should depart from our understanding in Lewis
County. As with the waiver there, Congress codified
the federal interest in § 3172. This statute authorizes

15a
the States to apply workers’ compensations laws to federal land located in the state without limitation and thus
permits the distinction that HB 1723 draws.
In light of the United States’ arguments here, a comparison of § 3172 with another waiver, namely the
waiver contained in the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA),
42 U.S.C. § 9620(a)(4), reinforces the conclusion that
§ 3172 does not codify a nondiscrimination rule. 7
CERCLA waives the Federal Government’s immunity from state laws concerning the removal and remediation of hazardous substances, but that waiver “shall not
apply to the extent a State law would apply any standard
or requirement to [Federal] facilities which is more
stringent than the standards or requirements applicable
to facilities which are not owned or operated by [the
Federal Government].” 42 U.S.C. § 9620(a)(4) (emphasis added). We held in Boeing Co. v. Movassaghi that
this waiver did not save a California law that imposed
“more stringent standards” on the Federal Government
for the cleanup of a federal nuclear site located in California. 768 F.3d at 841-42. Because we could locate
no other congressional authorization, we concluded that

7
In addition to CERCLA, the district court contrasted § 3172 with
4 U.S.C. § 111, a waiver of intergovernmental tax immunity that expressly does not permit state and local taxation that “discriminate[s]” against United States’ officers or employees simply because
of their federal status. Section 3172, indeed, bears no semblance to
that provision. Contrary to the United States’ objection to this comparison, the comparison merely underscores that Congress knows
how to limit a waiver in the same way that the United States asks us
to read § 3172.

16a
the California law both directly regulated and discriminated against the Federal Government in violation of
the Supremacy Clause and the doctrine of intergovernmental immunity. Id. at 840-43.
Here, the United States seeks to import into the statutory phrase “in the same way and to the same extent”
the limitation that Congress codified in CERCLA.
The United States avers that HB 1723 impermissibly
applies “more stringent regulation” to the Federal Government. And it argues that reading § 3172 to “authorize[] a state to enact laws that subject federal contractors, and only federal contractors, to more stringent
standards than those of generally applicable state law”
is “atextual.” Neither the text on which the United
States focuses, nor any other text in § 3172, however,
excepts from the waiver those state workers’ compensation laws that are “more stringent” as applied to the
Federal Government or those with whom it deals. Boeing and its analysis are inapposite.
We arrive, finally, to considering the statutory text
that the United States’ reading of § 3172 omits: “as if
the premises were under the exclusive jurisdiction of the
State[.]” 40 U.S.C. § 3172. We, of course, cannot ignore
this text. Ariz. State Bd. for Charter Sch., 464 F.3d at
1007 (stating that a court may not “subtract” statutory
text). And we must read it with the rest of the statutory text. Davis v. Mich. Dep’t of Treasury, 489 U.S.
803, 809 (1989) (“It is a fundamental canon of statutory
construction that the words of a statute must be read in
their context and with a view toward their place in the
overall statutory scheme.”).
When the phrase “in the same way and to the same
extent” is read with “as if the premises were under the

17a
exclusive jurisdiction of the State,” it is evident that
§ 3172 removes federal jurisdiction as a barrier to a
state’s authority over workers’ compensation laws for all
who are located in the state. See Peak v. Small Business Admin., 660 F.2d 375, 376 n.1 (8th Cir. 1981) (“[S]tate
workmen’s compensation laws, as applied to private employers working on federal land, are freed from any restraint by reason of the exclusive federal jurisdiction.”);
Capetola v. Barclay White Co., 139 F.2d 556, 559 (3d Cir.
1943) (“[T]he purpose and effect of the . . . Act was
to free State workmen’s compensation laws from the restraint upon their enforcement theretofore existing by
reason of the exclusive federal jurisdiction of lands
within the States[.]”), cert. denied, 321 U.S. 799 (1944);
Travelers Ins. Co. v. Cardilllo, 141 F.2d 362, 363 (D.C.
Cir. 1942) (“[T]he statute . . . revest[s] State jurisdiction which, presumably, Congress thought might be
divested by the acquisition and ownership of the land by
the United States for Federal purposes. The effect
. . . is . . . to restore the status quo ante, and the
purpose was to make sure that employees of contractors
during work on a Federal building in a Federal area
would be able to recover compensation benefits for disability or death.”).
By removing federal jurisdiction as a barrier to application of state workers’ compensation laws to those
who work on federal land located in the State, § 3172 authorizes the State to apply to such land the authority it
has over workers’ compensation in its exclusive jurisdiction. Subject to constitutional constraints, the States
possess broad authority to enact laws that are reasonably deemed to be necessary to promote the health, safety,
and general welfare of those in its jurisdiction, including
workers’ compensation laws. Weber v. Aetna Cas. & Sur.

18a
Co., 406 U.S. 164, 172 (1972); Mountain Timber Co. v.
Wash., 243 U.S. 219, 238 (1917). We presume that Congress was aware of this authority when it fashioned
§ 3172 to permit the State to apply its workers’ compensations laws to federal land in the State “as if ” it were
under the State’s “exclusive jurisdiction,” without exception. Goodyear, 486 U.S. at 184-85. Critically, as
it did in the district court, the United States conceded
during oral argument that Washington could enforce
HB 1723 if the Federal Government were not involved
and the Hanford site were a state project. 8 As we read
it, § 3172 permitted Washington to enact and apply HB
1723 to federal contractors and their employees at the
Hanford site.
It thus follows that, “when Congress chooses not to
include any exceptions to a broad rule, courts apply the
broad rule.” Bostock v. Clayton Cty., 140 S. Ct. 1731,
1747 (2020). Section 3172 permits the State to apply
workers’ compensation laws to federal land located in
the State, without limitation, and to make the distinction
that it has drawn in HB 1723. Thus, HB 1723 falls
within the scope of § 3172’s waiver and does not violate
the doctrine of intergovernmental immunity.
III. Remaining Issues

Notwithstanding the foregoing, we briefly explain
why we decline to resolve two other issues raised by the
parties.
8
The State also previously amended its workers’ compensation
laws to adopt a presumption applicable only to firefighters. Wash.
Rev. Code § 51.32.185. Thus, it is not unprecedented for Washington to exercise its authority to fashion workers’ compensation laws
to adopt a presumption tailored to certain employment.

19a
First, the United States observes that the Federal
Government has fashioned a program for workers injured by exposure to radiation and chemicals at DOE
sites, pursuant to the Energy Employees Occupational
Illness Compensation Program Act (EEOICPA), 42
U.S.C. § 7384 et seq., as amended by 118 Stat. 1811, 2178
(2004). Pursuant to the EEOICPA, the Federal Government has paid out more than $1.75 billion to Hanford
workers as of June 2020. 9 In the United States’ view,
EEOICPA “properly addresses concerns of this kind.”
Although this argument sounds in preemption, the
United States has waived that argument by not clearly
and distinctly raising it. McKay v. Ingleson, 558 F.3d
888, 891 n.5 (9th Cir. 2009).
Second, Washington argues that HB 1723 is rationally related to a government interest and thus is a constitutional exercise of its authority even if the law discriminates against those who deal with the Federal Government. This argument correctly recognizes that state
authority is subject to constitutional constraints, including the Equal Protection and Due Process Clauses of the
Fourteenth Amendment. Weber, 406 U.S. at 172; Mountain Timber Co., 243 U.S. at 243-45. But the only claims
the United States raised in this case concern whether
HB 1723 violates the doctrine of intergovernmental immunity. We need not go further than § 3172 to resolve
those claims. See Nw. Austin Mun. Util. Dist. No. One
v. Holder, 557 U.S. 193, 197 (2009) (“Our usual practice

9
See United States Dep’t of Labor, Total Benefits Paid by Facility, Cumulative EEOICPA Compensation and Medical Paid—
Hanford (June 30, 2020), available at https://www.dol.gov/owcp/energy/
regs/compliance/charts/hanford.htm.

20a
is to avoid the unnecessary resolution of constitutional
questions.”).
CONCLUSION

We hold that HB 1723 falls within § 3172’s waiver of
the Federal Government’s immunity from state workers’ compensation laws, and thus does not violate the
doctrine of intergovernmental immunity. Consequently,
Washington was entitled to summary judgment on the
United States’ claims.
AFFIRMED.

21a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

No. 19-35673
D.C. No. 4:18-cv-05189-SAB
UNITED STATES OF AMERICA, PLAINTIFF-APPELLANT
v.
STATE OF WASHINGTON; JAY ROBERT INSLEE, IN HIS
OFFICIAL CAPACITY AS GOVERNOR OF THE STATE OF
WASHINGTON; JOEL SACKS, IN HIS OFFICIAL CAPACITY
AS DIRECTOR OF THE WASHINGTON STATE
DEPARTMENT OF LABOR AND INDUSTRIES;
WASHINGTON STATE DEPARTMENT OF LABOR &
INDUSTRIES, DEFENDANTS-APPELLEES
Argued and Submitted: July 6, 2020
Seattle, Washington
Filed: Aug. 19, 2020
Amended: Apr. 15, 2021
Appeal from the United States District Court
for the Eastern District of Washington
Stanley Allen Bastian, District Judge, Presiding
ORDER AND AMENDED OPINION

22a
Before: RICHARD R. CLIFTON and MILAN D. SMITH,
JR., Circuit Judges, and JAMES DONATO,* District Judge.
Concurrence in Order by Judge MILAN D. SMITH,
JR.;
Dissent from Order by Judge COLLINS;
Opinion by Judge MILAN D. SMITH, JR.
ORDER

The court’s opinion filed August 19, 2020, and published at 971 F.3d 856 (9th Cir. 2020), is hereby amended
as follows: on page 19 of the slip opinion, replace “Critically, as it did in the district court, the United States
conceded during oral argument that Washington could
enforce HB 1723 if the Federal Government were not
involved and the Hanford site were a state project.” with
“Critically, as it did in the district court, the United
States conceded during oral argument that Washington
could enforce a version of HB 1723 that did not involve
the Federal Government and where the Hanford site
were a state project.” An amended opinion is filed concurrently with this order.
With this amendment, the panel has unanimously
voted to deny the petition for panel rehearing. (Dkt.
37) Judge M. Smith votes to deny the petition for rehearing en banc, and Judge Clifton and Judge Donato so
recommend. (Id.)
The full court has been advised of the petition for rehearing en banc (Id.) A judge requested a vote on
whether to rehear the matter en banc. The matter
The Honorable James Donato, United States District Judge for
the Northern District of California, sitting by designation.
*

23a
failed to receive a majority of the votes of the nonrecused active judges in favor of en banc reconsideration. Fed. R. App. P. 35(f ).
The petition for rehearing en banc is DENIED. No
subsequent petitions for panel rehearing or rehearing
en banc shall be permitted. Judge M. Smith’s concurrence with and Judge Collins’s dissent from the denial
of rehearing en banc are filed concurrently herewith.
M. SMITH, Circuit Judge, concurring in the denial of rehearing en banc:
Despite the overwhelming rejection by our court of
his en banc call in this case, my dissenting colleague continues to speak of this rather straight-forward statutory
construction case in apocalyptic terms. Because of his
extensive use of hyperbole, coupled with the fact that his
claims were not asserted or addressed in our opinion, I
briefly respond to my colleague’s contentions in this concurrence so they will be appropriately challenged.
Briefly stated, Judge Collins disregards the plain text of
§ 3172(a) and misreads the relevant precedents. In
contrast, our decision does nothing more than apply the
full text of the federal statute at issue and correctly apply the relevant case law. For that reason, I concur in
the court’s denial of rehearing en banc.
I

As Judge Collins notes, “whether the Washington
statute is valid turns solely on whether it is authorized
by § 3172(a).” Dissent at 23. “Statutory interpretation,
as we always say, begins with the text.” Ross v. Blake,
136 S. Ct. 1850, 1856 (2016); see also Medina Tovar v.
Zuchowski, 982 F.3d 631, 640 (9th Cir. 2020) (Collins, J.,

24a
concurring in the judgment) (“As with any question of
statutory interpretation, we must ‘begin with the text of
the statute.’ ” (quoting Kasten v. Saint-Gobain Performance Plastics Corp., 563 U.S. 1, 7 (2011)). Curiously,
Judge Collins does not begin with the complete text of
§ 3172(a).
Subsection 3172(a) provides:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and
awards of the authority may apply the laws to all land
and premises in the State which the Federal Government owns or holds by deed or act of cession, and to
all projects, buildings, constructions, improvements,
and property in the State and belonging to the Government, in the same way and to the same extent as
if the premises were under the exclusive jurisdiction
of the State in which the land, premises, projects,
buildings, constructions, improvements, or property
are located.
40 U.S.C. § 3172(a) (emphasis added). The phrase at
issue in this case is: “in the same way and to the same
extent as if the premises were under the exclusive jurisdiction of the State.” Id.
Judge Collins focuses only on the first part of the italicized text: “in the same way and to the same extent.”
According to my dissenting colleague, “Washington has
fashioned specially tailored rules that apply to the federal Hanford facility in a different way, and that impose
liability to a different extent, than Washington does with
any premises ‘under the exclusive jurisdiction of the
State.’ ” Dissent at 24.

25a
This reading ignores the latter part of the italicized
text: “as if the premises were under the exclusive jurisdiction of the State.” Subsection 3172(a) does not
require that state governments enact the exact same
workers’ compensation scheme for state-owned and
federally-owned property. Instead, a state may enact
a workers’ compensation scheme for federally-owned
property as long as it could enact the same scheme “in
the same way and to the same extent” if the property
were under the jurisdiction of the state.
As we note in the amended opinion, “the United
States conceded during oral argument that Washington
could enforce a version of HB 1723 that did not involve
the Federal Government and where the Hanford site
were a state project.” Amended Slip Op. at 53. If the
Hanford site were under the control of the state government, Washington could apply this workers’ compensation scheme to employees and contractors from that hypothetical site. 1 Subsection 3172(a) “removes federal
jurisdiction as a barrier to a state’s authority over workers’ compensation laws for all who are located in the
state.” Washington, 971 F.3d at 865. If Washington
could apply a version of HB 1723 to a hypothetical stateowned Hanford site, it can do so for a federally-owned
Hanford site. This shows that Washington is applying
1
A state workers’ compensation scheme is, of course, “[s]ubject to
[other] constitutional constraints,” such as the due process and equal
protection clauses, but “the States possess broad authority to enact
laws that are reasonably deemed to be necessary to promote the
health, safety, and general welfare of those in its jurisdiction, including workers’ compensation laws.” Washington, 971 F.3d at 865
(citing Weber v. Aetna Cas. & Sur. Co., 406 U.S. 164, 172 (1972)).
However, only the intergovernmental immunity doctrine is at issue
in this case.

26a
HB 1723 “as if [the Hanford site] were under the exclusive jurisdiction of the State.” 40 U.S.C. § 3172(a).
If the United States can show that a state applied a
workers’ compensation scheme to federally-owned property but could not apply that same scheme to similarlysituated state-owned property “in the same way and to
the same extent,” such a scheme would not be protected
by § 3172(a). For example, imagine that both Washington and the Federal Government operate public
parks within the physical boundaries of the state. For
reasons unknown (perhaps because of climate change,
perhaps because of an increase in the number of picnic
baskets in the parks), bear attacks dramatically rise in
both federal and state parks. Washington recognizes
that these increased bear attacks are a problem for park
rangers in both types of parks and enacts the following
amendment to its workers’ compensation scheme:
“Each time a park ranger in a state park is injured by a
bear, that ranger shall receive compensation of $100.
Each time a park ranger in a federal park is injured by
a bear, that ranger shall receive compensation of
$1,000,000.” However, the Washington Constitution
also contains a provision stating that “workers’ compensation payments to state employees may not exceed
$100,000.”
That new statutory provision would violate the intergovernmental immunity doctrine and would not be protected by § 3172(a) because, in this scenario: (1) the
Federal Government can show that Washington is applying a worker’s compensation scheme in a different
manner and to a different extent against federal employees; and (2) Washington could not apply the $1,000,000
payment scheme to state park rangers because the

27a
Washington Constitution forbids it. Thus, the $1,000,000
payment provision could not be applied “in the way and
to the same extent as if the premises were under the exclusive jurisdiction of ” Washington. Contrary to my
dissenting colleague’s assertion, our reading of the statute does not “ignore[]” the words “in the same way and
to the same extent” and “effectively read[ that phrase]
out of the statute.” Dissent at 32. Our reading of the
statute gives meaning to “every word Congress used.”
Reiter v. Sonotone Corp., 442 U.S. 330, 339 (1979).
Judge Collins’s reading of the statute violates the
basic canon of statutory construction that we must “construe what Congress has written. After all, Congress
expresses its purpose by words. It is for us to ascertain
—neither to add nor to subtract, neither to delete nor to
distort.” 62 Cases, More or Less, Each Containing Six
Jars of Jam v. United States, 340 U.S. 593, 596 (1951).
My dissenting colleague argues that the phrase “as if
the premises were under the exclusive jurisdiction of the
State” instead “provides the baseline for comparison in
applying the statute’s non-discrimination principle.”
Dissent at 33 (emphasis in original).
Judge Collins puts the cart before the horse. He
discusses § 3172(a)’s alleged “non-discrimination” or
“anti-discrimination” principle numerous times in his
dissent. See Dissent at 28, 30, 30-31, 31-32, 33, 34, 36.
However, neither Goodyear nor Lewis County stand for
the proposition that § 3172(a) requires that a state pass
identical workers’ compensation schemes for federal
and non-federal facilities. I agree that a state cannot
apply a scheme to the federal facility that it could not
apply to a non-federal facility. In that sense, it could be

28a
said that § 3172(a) contains a “non-discrimination principle.” To Judge Collins, however, Goodyear and
Lewis County forbid a state from passing different
workers’ compensation schemes for different types of
facilities, even if those schemes could be applied to nonfederal facility, in line with the plain text of the statute.
Perhaps Judge Collins is hoping that by repeating
the phrase “non-discrimination principle” over and over
that his interpretation of the statute will become true.
But alas, that is not the case. The only way my dissenting colleague can give meaning to the phrase “as if the
premises were under the exclusive jurisdiction of the
State” is by first by reading his extra-textual version of
the “non-discrimination principle” into the statute, and
then by attempting to show that the phrase is about applying this concocted principle. Judge Collins’s interpretation is “an unreasonably narrow and atextual reading of the statutory exception.” Szonyi v. Barr, 942
F.3d 874, 887 (9th Cir. 2019) (Collins, J., dissenting from
denial of rehearing en banc), cert. denied, 141 S. Ct. 444
(2020).
We read the phrase simply according to its plain language: if a state can apply a workers’ compensation
law to premises under its own exclusive jurisdiction,
then it can apply that same law to premises under federal jurisdiction. Neither my dissenting colleague nor
the United States question that Washington could apply
the protections in HB 1723 to a facility owned by the
State of Washington. In fact, as highlighted above, the
United States conceded at oral argument that Washington could apply a version of HB 1723 to a state-owned

29a
Hanford-like facility. 2 Thus, it is only our reading that
gives content to each and every word of § 3172(a), and
it is only our reading that conforms to the statute’s plain
text. 3

My dissenting colleague further argues that our “reliance on
hypothetical laws is also refuted by the statutory text, which says
that the state agency charged with enforcing ‘the state workers’
compensation laws’ may apply ‘the laws’ to federal property as
specified.” Dissent at 34 (quoting 40 U.S.C. § 3172(a)). This argument fails. Washington is applying HB 1723, which is an amendment to the Washington Industrial Insurance Act, the state’s workers’ compensation scheme. See Washington, 971 F.3d at 859-60.
To the extent Judge Collins contends that we cannot compare HB
1723 to a hypothetical state law that would violate § 3172(a), Congress’s decision to use the phrase “as if ” clearly refutes that premise. “As if ” commands us to imagine that the Hanford site were
under Washington’s exclusive jurisdiction and to determine whether
Washington could extend the protections of HB 1723 to that hypothetical site.
3
Judge Collins only briefly attempts to refute the comparison between § 3172(a) and other statutes in which Congress has waived
intergovernmental immunity, namely 42 U.S.C. §9620(a)(4) and 4
U.S.C. § 111. See Washington, 971 F.3d at 864 & n.7; Dissent at 3536. As the Supreme Court has instructed, we bolstered our interpretation of § 3172(a) by comparing it to other statutes waiving intergovernmental immunity. See Breuer v. Jim’s Concrete of Brevard, Inc., 538 U.S. 691, 694-97 (2003). From both 42 U.S.C.
§ 9620(a)(4) and 4 U.S.C. § 111, it is clear that “[w]hen Congress has
wished to” codify a nondiscrimination rule in a waiver of intergovernmental immunity, “it has shown itself capable of doing so in unmistakable terms.” Breuer, 538 U.S. at 697 (citation and internal
quotation marks omitted). Congress did not use similar language
in § 3172(a).
2

30a
II

My dissenting colleague opines that we erred in applying Goodyear and Lewis County. Respectfully, we
did not.
A

In Goodyear, the Supreme Court handed down a
broad holding:
Section 290 provides that a state authority charged
with enforcing “workmen’s compensation laws,” which
in Ohio is the Industrial Commission, “shall have the
power and authority to apply such laws” to federal
premises “in the same way and to the same extent as
if said premises were under the exclusive jurisdiction
of the State.” This language places no express limitation on the type of workers’ compensation scheme
that is authorized.
486 U.S. at 183 (emphasis added) (footnote omitted).
To Judge Collins, “the Government’s argument [in
Goodyear] was that Congress had imposed an additional limitation on the application of state workers’
compensation laws, beyond the requirement that they
be applied in a non-discriminatory fashion.” Dissent at
26. But where, one might ask, did the Supreme Court
interpret § 290, the predecessor to § 3172(a), to require
the non-discrimination principle proposed by Judge Collins?
My dissenting colleague is correct that pursuant to
the Ohio scheme at issue in Goodyear, the Federal Government and private employers were subject to the
same scheme. See Dissent at 26. The Court highlighted this fact. See Goodyear, 486 U.S. at 183-85.

31a
The Court did not encounter a scenario like the one with
HB 1723 because the Ohio statute was generally applicable. Thus, it would make sense for the Court to note
that the state statute at issue was applicable to private
and federal employers alike.
Because the Ohio statute in Goodyear was dissimilar
to HB 1723, the Court’s notation of the general applicability of the statute is not controlling in this case. 4
Judge Collins writes that “[t]here is not much ambiguity
about [the Goodyear] holding.” Dissent at 25. But
the Court’s notation that the Ohio statute was generally
applicable was not part of the holding in Goodyear, as
even Judge Collins acknowledges. See Dissent at 26
(noting that the issue in Goodyear was not whether the
statute was generally applicable, but instead whether
§ 290 limited the type of workers’ compensation laws).
The Court never explicitly disavowed a scheme that applied only to a federal facility “as if the premises were
under the exclusive jurisdiction of the State,” and where
that scheme could be applied “in the same way and to
the same extent.” 40 U.S.C. § 3172(a). In other words,
per the Supreme Court’s interpretation, the statute
does not require that the state law be generally applicable. The Court did not hold that the statute contains
Judge Collins’s alleged non-discrimination principle. 5

We acknowledged the differences between Goodyear and the instant case in the opinion. See Washington, 971 F.3d at 863 (“To be
sure, the Court considered there a state workers’ compensation law
that did not concern a particular employer, or a particular site located in the state, like HB 1723 does.”).
5
Judge Collins nonetheless alleges that the Supreme Court did
require a non-discrimination principle by writing, “On its face, § 290
4

32a
What is applicable from Goodyear, however, is the
Court’s broad language interpreting the predecessor to
§ 3172(a). The Court wrote that the federal waiver of
intergovernmental immunity “places no express limitation on the type of workers’ compensation scheme that
is authorized.” Goodyear, 486 U.S. at 183 (emphasis
added). This broad pronouncement immediately followed the Court quoting the “in the same way and to the
same extent as if said premises were under the exclusive
jurisdiction of the State” language. See id. HB 1723 is
a “type of workers’ compensation scheme.” Id. (emphasis added); see Type, Merriam-Webster.com Dictionary (“a particular kind, class, or group”). HB 1723 is
“a particular kind, class, or group” of workers’ compensation scheme, in that it particularly applies to the class
compels the same workers’ compensation award for an employee injured at a federally owned facility as the employee would receive if
working for a wholly private facility.” Goodyear, 486 U.S. at 183-84;
see Dissent at 28. I have no qualms with the idea that a state must
apply a workers’ compensation scheme “in the same way and to
the same extent” to workers at a private facility, but that state must
do so only in comparison such a private facility “as if th[ose] premises
were under the exclusive jurisdiction of the State.”
40 U.S.C.
§ 3172(a).
As I note above, as long as a state could apply the same
workers’ compensation scheme to a facility under its exclusive jurisdiction, that scheme is authorized by § 3172(a) if applied to a
federal facility. In such an instance, a worker at a federal facility
“would receive” the same compensation award at “a wholly private
facility” if the state decided to apply that particular scheme to private facilities. Goodyear, 486 U.S. at 18 (emphasis added). My
dissenting colleague’s arguments to the contrary are incorrect. See
Dissent at 34-35 & n.3. In the case of HB 1723, Washington did not
extend those particular protections to private facilities, but as the
Federal Government conceded, and as I noted above, there is little
doubt that Washington had the power to enact a version of HB 1723
for a facility under its exclusive jurisdiction.

33a
of workers at the Hanford site.
opinion:

As we stated in the

[T]he Court did not purport to impose the limitation
on the statute . . . ; indeed, the Court recognized
that the statute placed no express limitation on permissible workers’ compensation laws. We cannot
properly construe § 3172 in a way that would conflict
with that understanding of a materially identical statutory provision.
Washington, 971 F.3d at 863. Thus, while Goodyear
did not involve the exact scenario presented here, the
Supreme Court’s broad interpretation of § 3172(a)’s predecessor is binding on our court.
B

Judge Collins also mischaracterizes Lewis County.
As it was in Goodyear, the state provision at issue in
Lewis County was applied to the Federal Government
and private parties. We stated, “It is also worth noting
that the County’s tax on [federally]-owned farmland is
also imposed on privately-owned farmland in general.”
Lewis Cnty., 175 F.3d at 676. Thus, “Lewis County
taxed private farmland to the same extent, and in the
same manner, as it taxed [federal] farmland.” Id.
As Judge Collins acknowledges, the Federal Government “argued that Washington engaged in impermissible discrimination against the Federal Government by
exempting state and local government property from
the property tax.” Dissent at 29; see also Lewis Cnty.,
175 F.3d at 675 (noting that the Federal Government argued that “because Lewis County may not tax . . .
any . . . state or local government property, the

34a
County may not tax property held by the” Federal Government).
By ruling in favor of Washington in Lewis County,
we explicitly rejected that the statute in question, 7
U.S.C. § 1984, contained a non-discrimination principle
when comparing state and federal property. In fact,
we noted that “Washington’s tax scheme undeniably
discriminates between farmland that is held by the
[Federal Government] and farmland that is similarly
held by the state” because “[s]tate and local governments have traditionally exempted themselves from
state and local taxation.” Lewis Cnty., 175 F.3d at 675
(emphasis added).
This undeniable discrimination
was not dispositive, showing that there was no nondiscrimination principle built into the statute, at least
when it came to comparing state and federal property.
To Judge Collins, Lewis County embedded a nondiscrimination principle in § 1984 because we noted that
Washington “taxed [federal] property just as it taxed
other non-exempt property,” i.e., private property. Id.
However, that Washington also taxed private property
was not central to our holding. See id. at 676 (“It is also
worth noting. . . . ”). Once again, Judge Collins
seeks to convert dicta into binding precedent.
In Lewis County, we also remanded a particular
claim to the district court to determine whether Lewis
County “discriminated against the United States in the
establishment or implementation of its rules” by classifying three individual federal parcels as non-agricultural
and taxing those parcels at a higher rate than the other
federal parcels, which Lewis County classified as
agricultural. Id. at 678-79. Section IV of the Lewis
County decision did not interpret § 1984 to require non-

35a
discrimination when comparing state and federal property. So while Judge Collins is technically correct that
Lewis County remanded a claim for the district court to
determine if the United States faced discrimination, the
discrimination in question pertained only to whether
Lewis County “establish[ed] or implement[ed] . . .
its [own] rules” concerning the classification of agricultural vs. non-agricultural land in a way that discriminated against the United States. Section IV of Lewis
County did not remand the case for the purpose of applying a non-discrimination principle in comparing state
and federal property.
Both Lewis County and this case hinged on whether
the state could treat the federally-run entities differently from state-run entities. In Lewis County, we interpreted the phrase “other property” not to include
state-owned property, based on a congressional understanding that states had typically exempted themselves
from taxation. See 175 F.3d at 675-76. In Washington, § 3172(a)’s language “as if the premises were under
the exclusive jurisdiction of the State” qualifies the “in
the same way and to the same extent” language to allow
Washington to pass a particular scheme for federal employees and contractors, as long as it could apply a similar scheme to a Hanford-type facility under its own jurisdiction.
III

While Judge Collins cites McCulloch v. Maryland, 17
U.S. (4 Wheat.) 316 (1819) to argue that the sky is figurately falling, the circumstances in this case could not be
more different than those in McCulloch. In refusing to
allow Maryland to tax the Second Bank of the United
States into oblivion, Chief Justice Marshall knew the

36a
enormous consequences at stake. The Second Bank’s
continued existence would determine whether the Nation could wage war in the future, as it was the
“calamit[y]” of fighting the War of 1812 without a national bank that “led the administration to propose that
Congress charter” that institution. Robert J. Reinstein, The Limits of Congressional Power, 89 Temp. L.
Rev. 1, 67 (2016). This case, in contrast, is about
whether a single state can employ a unique workers’
compensation scheme to a federal nuclear facility that
has no equal. See Washington, 971 F.3d at 858 (noting
that “the Hanford site produced nearly two-thirds of the
nation’s weapons grade plutonium for use . . . during World War II and the Cold War” and that the site’s
“cleanup is . . . ‘unprecedented in its scale and complexity’ ”). A suggestion that HB 1723 will result in the
elimination of the Hanford site, or will prevent the Federal Government from operating within the boundaries
of the State of Washington, is “too obvious[ly]” false to
be accepted. McCulloch, 17 U.S. at 427.
* * *
“[W]hen Congress chooses not to include any exceptions to a broad rule, courts apply the broad rule.”
Bostock v. Clayton Cnty., Ga., 140 S. Ct. 1731, 1747
(2020). The waiver of intergovernmental immunity in
§ 3172(a) is broad. The Supreme Court told us as much
when it interpreted the provision to “place[] no express
limitation on the type of workers’ compensation scheme
that is authorized.” Goodyear, 486 U.S. at 183. Judge
Collins might disagree with the scope of § 3172(a)’s
waiver, but that was a policy decision made by Congress.
If Congress wishes to restrict the waiver of intergovernmental immunity in § 3172(a) to forbid state laws like

37a
HB 1723, it obviously may do so. However, we cannot
properly restrict a waiver Congress has chosen not to
restrict. In this case, we applied the law as written.
Nothing more. Nothing less. For that reason, I concur in the denial of rehearing en banc.

38a
COLLINS, Circuit Judge, with whom CALLAHAN, BENNETT, and BRESS , Circuit Judges, join, dissenting from
the denial of rehearing en banc:
Until the panel’s opinion in this case, no federal court
in the more than 200 years since Chief Justice John
Marshall’s landmark decision in McCulloch v. Maryland, 17 U.S. 316 (1819), has ever upheld a state statute
that explicitly strikes at the Federal Government in the
sort of extraordinary and egregious way that Washington has done here. The panel’s unprecedented decision
is all the more remarkable because it flouts a directly
controlling decision of the U.S. Supreme Court that required the opposite result. We should have reheard
this case en banc.
The panel’s decision upholds a 2018 Washington statute that explicitly imposes a uniquely permissive regime
of retroactive workers’ compensation liability in favor of
any person who worked “either directly or indirectly, for
the United States” in connection with the “Hanford nuclear site,” a decommissioned federal facility in Washington State. Wash. Rev. Code § 51.32.187(1)(b) (emphasis added). Under these special rules, any such
Hanford worker who develops certain enumerated diseases is presumed to have a work-related “occupational
disease” entitling him or her to a workers’ compensation
award, subject to rebuttal only by clear and convincing
evidence. These facially discriminatory standards apply retroactively, even to the point of explicitly allowing
previously denied claims to be reopened under these
new, more claimant-friendly standards. These tailormade workers’-compensation rules bear no resemblance
to the normal ones that apply to employees at any other
facility in Washington State.

39a
The panel conceded that, absent “clear and unambiguous” congressional authorization for such blatant facial
discrimination against the Federal Government, Washington’s law would violate the long-established doctrine
of intergovernmental immunity.
United States v.
Washington, 971 F.3d 856, 861 (9th Cir. 2020); see also
Boeing Co. v. Movassaghi, 768 F.3d 832, 839 (9th Cir.
2014); see generally McCulloch, 17 U.S. at 436. But the
panel then reached the astonishing conclusion that Congress has by statute affirmatively greenlighted such
open and explicit discrimination against the Federal
Government, thereby giving the States carte blanche to
impose whatever special workers’ compensation rules
they want on the United States and its contractors.
The plain language of the federal statute invoked by the
panel decisively refutes this suggestion, because that
statute consents to the application of the “workers’ compensation laws” of a State to employees at federal facilities only “in the same way and to the same extent” as if
the facilities were not under federal jurisdiction. See
40 U.S.C. § 3172(a) (emphasis added). What is more,
in reading this equal-treatment language as somehow
authorizing facial discrimination, the panel defied the
Supreme Court’s decision in Goodyear Atomic Corp. v.
Miller, 486 U.S. 174 (1988). Construing the very same
statute invoked by the panel here, the Supreme Court
held that, “[o]n its face,” the federal statute “compels
the same workers’ compensation award for an employee
injured at a federally owned facility as the employee
would receive if working for a wholly private facility.”
Id. at 183-84 (emphasis added). The whole point of
Washington’s special statute, of course, is not to provide
for “the same workers’ compensation award for an employee” at the Hanford facility “as the employee would

40a
receive if working for a wholly private facility.” Id.
Goodyear thus unambiguously required this court to
strike down the Washington statute.
Washington may be right in its apparent belief that,
despite having “paid out more than $1.75 billion to Hanford workers,” Washington, 971 F.3d at 866, the Federal
Government has not done right by those workers who
were exposed to nuclear materials at the Hanford facility. But regardless of how noble its intentions are,
Washington lacks any authority to impose special workers’ compensation rules on federal facilities. And we,
in turn, have no authority to construe a statute to mean
the exact opposite of what its words say and no authority
to ignore a directly controlling Supreme Court decision
that proves us wrong.
I respectfully dissent from our refusal to rehear this
case en banc.
I

The Hanford nuclear site that is the target of Washington’s facially discriminatory law is “a decommissioned federal nuclear production site that sprawls over
more than five hundred square miles in southeastern
Washington State.” 971 F.3d at 858. During its active years from 1944 to 1989, the site generated large
amounts of hazardous waste. Id. Since 1989, the
United States Department of Energy (“DOE”) has overseen cleanup efforts at the Hanford site, “primarily relying on private contractors and subcontractors to perform the actual cleanup work.” Id. In addition to federal contractors and employees, state agencies and private companies also participate in the efforts at and near

41a
the site. The cleanup process is expected to last “for at
least six more decades.” Id.
In 2018, Washington enacted HB 1723, which added
§ 51.32.187 as part of the Washington Industrial Insurance Act (“WIIA”). (WIIA is Washington’s basic workers’ compensation law.) Section 51.32.187 retroactively
imposes a specially crafted set of more claimant-friendly
liability standards only with respect to those persons
who, at any time since 1943, “engaged in the performance of work, either directly or indirectly, for the
United States” at the “Hanford nuclear site” for “at
least one eight-hour shift.” See Wash. Rev. Code
§ 51.32.187(1)(b). The statute does so by creating a
“prima facie presumption”—applicable only to “United
States department of energy Hanford site workers”—
that certain enumerated illnesses are “occupational diseases” under the WIIA. Id. § 51.32.187(2)(a). The occurrence of an “occupational disease,” in turn, automatically entitles the person to “the same compensation
benefits and medical, surgical and hospital care and
treatment as would be paid and provided for a worker
injured or killed in employment under this title.” Id.
§ 51.32.180. The special liability-favoring presumption
created by HB 1723 may be rebutted only “by clear and
convincing evidence.” Id. § 51.32.187(2)(b). The presumption expressly remains operative after the person’s
“termination of service for the lifetime of ” that person.
Id. § 51.32.187(5)(a) (emphasis added). Moreover, the
statute explicitly allows workers or their surviving family members to refile, under these new standards, previously denied claims. Id. § 51.32.187(5)(b).
In response to HB 1723, the United States commenced
this action for declaratory and injunctive relief against

42a
Washington. It alleged that HB 1723 “discriminates
against the Federal Government and directly regulates
it in violation of the doctrine of intergovernmental immunity.” 971 F.3d at 860. On cross-motions for summary judgment, the district court granted summary
judgment for Washington. Id. A panel of this court
affirmed, concluding that, by enacting 40 U.S.C. § 3172,
Congress had provided “clear and unambiguous authorization” for the States to enact facially discriminatory
workers’ compensation rules that impose uniquely burdensome liability regimes only on the Federal Government. Id. at 861 (citations omitted); see also id. at 86166.
II

Two points of agreement frame the discrete issue
presented by this case. First, the panel did not dispute
—and in light of the applicable precedent could not
dispute—that, under the doctrine of intergovernmental
immunity, “state laws are invalid if they regulate the
United States directly or discriminate against the Federal Government or those with whom it deals . . .
unless Congress provides clear and unambiguous authorization for such regulation.” 971 F.3d at 861 (simplified); see also Goodyear, 486 U.S. at 180 (“It is well
settled that the activities of federal installations are
shielded by the Supremacy Clause from direct state regulation unless Congress provides ‘clear and unambiguous’ authorization for such regulation.”); Boeing Co., 768
F.3d at 836 (invalidating California statute that “mandate[d] more stringent cleanup procedures, not generally applicable within the state, to a particular site
where the federal government undertook to clean up nu-

43a
clear contamination it created”). Second, the only federal statute that Washington claims provides the requisite authorization is 40 U.S.C. § 3172(a). Accordingly,
whether the Washington statute is valid turns solely on
whether it is authorized by § 3172(a). Contrary to what
the panel concluded in its published decision, the text of
§ 3172(a) and controlling precedent all confirm that the
answer is “no.”
A

Section 3172(a) provides, in its entirety, as follows:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and awards
of the authority may apply the laws to all land and
premises in the State which the Federal Government
owns or holds by deed or act of cession, and to all projects, buildings, constructions, improvements, and
property in the State and belonging to the Government, in the same way and to the same extent as if
the premises were under the exclusive jurisdiction of
the State in which the land, premises, projects, buildings, constructions, improvements, or property are
located.
40 U.S.C. § 3172(a) (emphasis added). This language
provides no assistance to Washington, because that
State is manifestly not applying its “state workers’ compensation laws” to this particular federal facility “in the
same way and to the same extent” as if it were not a federal facility. See, e.g., Same, Black’s Law Dictionary
(11th ed. 2019) (“Identical or equal; resembling in any
relevant respect”). On the contrary, Washington has

44a
fashioned specially tailored rules that apply to the federal Hanford facility in a different way, and that impose
liability to a different extent, than Washington does with
any premises “under the exclusive jurisdiction of the
State.”
The correctness of this conclusion is confirmed by the
Supreme Court’s controlling decision in Goodyear.
Construing the predecessor version of § 3172(a), which
was then known as § 290, 1 the Court observed that,
“[o]n its face, § 290 compels the same workers’ compensation award for an employee injured at a federally
owned facility as the employee would receive if working
for a wholly private facility.” 486 U.S. at 183-84 (emphasis added). There is not much ambiguity about that
holding, and the panel’s opinion flouts it. Washington’s
facially discriminatory special liability regime for the
benefit of persons who worked “either directly or indirectly[] for the United States” at the Hanford facility,
see Wash. Rev. Code § 51.32.187(1)(b), manifestly does
not provide for “the same workers’ compensation award
for an employee injured” at the Hanford facility “as the
employee would receive if working for a wholly private
facility.” 486 U.S. at 183-84.
So, under the plain text of the statute, and directly
controlling Supreme Court precedent, § 51.32.187 of the
WIIA is not “clear[ly] and unambiguous[ly]” authorized
1
Former section 290 of Title 40 was renumbered and reworded,
without material substantive change, as part of the formal enactment
and codification of Title 40 in 2002. Prior to then, Title 40 (like
many other current titles of the Code) was an unenacted editorial
compilation of the relevant underlying Public Laws covering the
particular subject of the title. See 1 U.S.C. § 204(a); 2 U.S.C.
§ 285b.

45a
by § 3172(a), and it is therefore invalid.
U.S.at180. This case is that simple.

Goodyear, 486

B

The panel nonetheless got this straightforward case
wrong by making three serious mistakes.
1

First, the panel disregarded Goodyear’s controlling
construction of the statutory phrase at issue here.
In Goodyear, the Government contended that § 290
(now § 3172(a)) did not permit Ohio to apply, to a federal
facility, “a state-law workers’ compensation provision
that provides an increased award for injuries resulting
from an employer’s violation of a state safety regulation.” 486 U.S. at 176. In challenging that enhancedaward provision, the Government did not contend that
the provision violated § 290’s requirement that state law
must apply to a federal facility “in the same way and to
the same extent as” a private facility. Indeed, equal
application of Ohio’s generally applicable enhancedaward provision was precisely what the Government in
Goodyear was trying to avoid. Instead, the Government’s argument was that Congress had imposed an additional limitation on the application of state workers’
compensation laws, beyond the requirement that they
be applied in a non-discriminatory fashion. Specifically, the Government asserted that, in authorizing application of state “work[ers’] compensation laws” to federal facilities, Congress in § 290 only meant to authorize
the sorts of provisions contained in a “typical workers’
compensation act, under which workers are automatically entitled to certain benefits when they suffer a workrelated injury, without regard to the employer’s fault.”

46a
Id. at 183 (emphasis added). Because (according to the
Government) Ohio’s enhanced-award provision went beyond such a typical law, that provision did not count as
a “work[ers’] compensation law[]” for purposes of § 290,
despite its even-handed application to federal facilities.
Id. The Court rejected that argument, noting that the
text of § 290 “places no express limitation on the type of
workers’ compensation scheme that is authorized,” and
that similar types of enhanced-award provisions existed
when § 290 was enacted in 1936. Id. at 183-84 (emphasis added). All that is required by § 290, the Court
noted, is that Ohio law provide “the same workers’ compensation award for an employee injured at a federally
owned facility as the employee would receive if working
for a wholly private facility,” and the Ohio statute obviously met that requirement. Id. (emphasis added); see
also id. at 185 (“[I]t is clear that Congress intended
Ohio’s law and others of its ilk . . . to apply to federal facilities ‘to the same extent’ that they apply to private facilities within the State.”).
Seizing on Goodyear’s statement that § 290 (now
§ 3172(a)) places “no express limitation on the type of
workers’ compensation scheme that is authorized,” the
panel held that the Goodyear Court thereby allowed
States to impose a facially discriminatory “type” of
workers’ compensation law. 971 F.3d at 863. That is
a flagrant misreading of Goodyear. The Court’s holding was that the statute did not impose any limitation on
state workers’ compensation laws beyond the requirement that those laws provide “the same workers’ compensation award for an employee injured at a federally
owned facility as the employee would receive if working
for a wholly private facility.” Goodyear, 486 U.S. at
183-84. Thus, Goodyear held that § 290 allows States

47a
to adopt any substantive workers’ compensation system
they like, precisely so long as it is applied in a nondiscriminatory fashion to federal facilities. 2 Id. at 185
(cautioning that the “meaning of ‘work[ers’] compensation laws’ in § 290, of course, is not infinitely elastic”).
The panel’s holding that § 3172(a) contains no antidiscrimination requirement at all is thus directly contrary to the Supreme Court’s decision in Goodyear, as
well as to the statutory text.
The concurrence in the denial of rehearing en banc
only underscores the panel’s indefensible disregard of
Goodyear.
The concurrence mischaracterizes the
Court’s “notation” about equality of treatment between
federal and non-federal facilities as merely a background “fact” about the Ohio law at issue that the Court
“highlighted.” See Concurrence at 12-13. Having
done so, the concurrence then simply dismisses “the
Court’s notation that the Ohio statute was generally applicable” as “not part of the holding in Goodyear ” and
therefore “not controlling in this case.” See id. at 1213. These evasive maneuvers are insufficient to liberate the panel from the binding force of what the Goodyear Court said the statutory language means. When
the Supreme Court tells us that the words of § 3172(a)
“compel[]” the “same” award at a federal facility as
would be received at a “wholly private facility,” see
2
Accordingly, the concurrence is wrong in making the strawman
argument that this reading of § 3172(a) would “forbid a state from
passing different workers’ compensation schemes for different types
of facilities.” See Concurrence at 9-10. States may apply different
standards to different types of facilities or different types of work,
so long as in drawing these distinctions they do not discriminate
against the Federal Government.

48a
Goodyear, 486 U.S. at 183, we are bound to follow that
construction, whether we like it or not. The panel seriously erred in refusing to follow Goodyear.
2

Second, the panel held that its reading of § 3172(a)
was supported by our decision in United States v. Lewis
County, 175 F.3d 671 (9th Cir. 1999). See 971 F.3d at 86364. In fact, Lewis County squarely refutes the panel’s
analysis.
At issue in Lewis County was Washington’s property
tax scheme, which taxed federal property “whenever authorized by federal law.” 175 F.3d at 675. Relying on
7 U.S.C. § 1984, Washington extended its property tax
to properties held by the federal Farm Service Agency
(“FSA”), but the FSA brought suit, contending that the
tax was not authorized by § 1984 and that it violated the
doctrine of intergovernmental immunity. Id. at 674.
The wording of § 1984’s authorization of state taxation
was similar to § 3172(a): a State could tax “FSA property only ‘in the same manner and to the same extent as
other property is taxed.’ ” Id. at 675 (quoting 7 U.S.C.
§ 1984). The Government conceded that, except as to
three of the FSA’s parcels, the tax was uniformly applied to FSA property in exactly the same way that it
was applied to private property, but it nonetheless argued that Washington engaged in impermissible discrimination against the Federal Government by exempting state and local government property from the property tax. Id.
We rejected this argument, which impermissibly attempted to rewrite § 1984 as if it required equal treatment with “ ‘other publicly held property,’ ” as opposed

49a
to equal treatment with “ ‘other property.’ ” Id. (emphasis added). We noted that Congress was surely
aware that “states uniformly exempt state and local
property from taxation,” and so the Government’s reading would render § 1984 a dead letter. Id. Moreover,
it would make no sense to insist that state governments
“engage in a circular process of taxing themselves in order to impose the tax on the federal government that
Congress has authorized.” Id. at 676. We therefore
concluded that § 1984’s requirement that the tax be applied “in the same manner and to the same extent as
other property” was satisfied because Washington “taxed
FSA property just as it taxed other non-exempt property,” i.e., private property. Id. at 675.
Noting only that Lewis County authorized a distinction between FSA-owned property and state-owned or
local-government-owned property, the panel claimed
that Lewis County thus imposed no anti-discrimination
requirement at all, and the panel therefore held that the
similarly worded language in § 3172(a) must be read the
same way. See 971 F.3d at 863-64. But as the above
discussion of Lewis County makes clear, the panel’s
reading of that decision is demonstrably wrong. Lewis
County expressly applied a non-discrimination principle, concluding that the comparable language of § 1984
required the State to tax FSA-owned property “just as
it taxed” private property. 175 F.3d at 675; see also id.
at 676 (expressly noting that, because “the County’s tax
on FSA-owned farmland is also imposed on privatelyowned farmland in general,” the State “taxed private
farmland to the same extent, and in the same manner,
as it taxed FSA farmland” (emphasis added)). Indeed,
immediately after quoting the language of § 1984,

50a
the Lewis County court expressly described that language as establishing a non-discrimination requirement:
“Thus, state and local authorities may apply a nondiscriminatory tax to property acquired by the FSA
through loan default.” Id. at 674 (emphasis added).
It simply blinks reality to claim that Lewis County did
not adopt a non-discrimination principle.
Moreover, Lewis County’s non-discrimination discussion included a footnote stating that, in a later section of the opinion, the court addressed the FSA’s further argument that “the state has improperly taxed three
of its farmland parcels at a higher, non-agricultural
rate.” 175 F.3d at 676 n.5 (emphasis added). In the
cross-referenced discussion, Lewis County noted that
the proper classification of the parcels was governed in
the first instance by state law, but it went on to instruct
the district court also to determine, “purely as a matter
of federal law,” “whether the County has discriminated
against the United States in the establishment or implementation of its rules.”
See id. at 679 (emphasis
added). This was not, as the concurrence implausibly
contends, an instruction to determine whether the State
had “discriminated against the United States” by treating the Federal Government differently from itself.
See Concurrence at 16-17. Rather, it was an instruction to determine whether the State had applied the generally applicable state-law classification rules that govern all other parcels in a different way that “discriminated against the United States.” 175 F.3d at 679 (emphasis added). This holding further flatly disproves
the panel’s contention that Lewis County did not adopt
an anti-discrimination requirement. And it makes all
the more troubling the fact that the panel’s opinion in

51a
this case did not acknowledge Lewis County’s antidiscrimination holding.
The concurrence likewise errs in emphasizing Lewis
County’s holding that § 1984 did not forbid discrimination between FSA property and state-owned property.
See Concurrence at 15-16. The concurrence itself provides the reason why that discrimination was not
prohibited: “In Lewis County, we interpreted the
phrase ‘other property’ not to include state-owned property.” See id. at 17 (emphasis added). Thus, the antidiscrimination requirement in the statute—which required that States tax federal property “in the same
manner and to the same extent as other property is
taxed,” see 7 U.S.C. § 1984 (emphasis added)—simply
did not apply to state-owned property. The statute imposed only a requirement of non-discrimination vis-à-vis
private property, and Lewis County noted that that
requirement was satisfied (except as to the one issue it
remanded).
The panel’s elimination of any nondiscrimination requirement from § 3172 thus squarely
conflicts with our decision in Lewis County.
3

Finally, the panel held that the concluding phrase in
§ 3172(a), which allows workers’ compensation laws to
be applied “as if the premises were under the exclusive
jurisdiction of the State,” grants States plenary authority to enact any such laws they want, including ones that
facially discriminate against the Federal Government.
971 F.3d at 864-65. The panel’s reliance on this phrase
is unavailing, and it provides no basis for evading Goodyear.

52a
Contrary to what the panel held, § 3172(a) does not
“permit the State to apply its workers’ compensation[]
laws to federal land in the State ‘as if’ it were under the
State’s ‘exclusive jurisdiction,’ without exception.”
971 F.3d at 865 (emphasis added). Rather, what the
statute says is that States may only apply their workers’
compensation laws “in the same way and to the same
extent as if the premises were under the exclusive jurisdiction of the State.” 40 U.S.C. § 3172(a) (emphasis
added). The panel’s flawed construction—i.e., that
§ 3172(a) gives the States authority to enact any workers’ compensation laws concerning the Federal Government “without exception”—ignores this italicized phrase
and effectively reads it out of the statute. By construing the statute as granting plenary authority to “apply”
workers’ compensation laws “as if the premises were under the exclusive jurisdiction of the State,” the panel’s
reading gives the phrase “in the same way and to the
same extent” no work to do. That reading is therefore
plainly wrong. See Reiter v. Sonotone Corp., 442 U.S.
330, 339 (1979) (“In construing a statute we are obliged
to give effect, if possible, to every word Congress used.”).
The canon against surplusage applies with special force
here, because the Federal Government’s immunity from
discriminatory treatment can be defeated only by a
“clear and unambiguous authorization” of such discrimination. Goodyear, 486 U.S. at 180 (quotations omitted). A construction that excises part of the statute
cannot possibly be a “clear and unambiguous” reading
of the words.
Contrary to what the concurrence contends, my construction of the statute—which is, of course, the Supreme
Court’s construction in Goodyear—does not render surplusage the phrase “as if the premises were under the

53a
exclusive jurisdiction of the State.” Rather, that phrase
provides the baseline for comparison in applying the
statute’s non-discrimination principle: it means, as
Goodyear confirms, that the State must provide for “the
same workers’ compensation award for an employee injured at a federally owned facility as the employee would
receive if working for a wholly private facility.” Goodyear, 486 U.S. at 183-84 (emphasis added). In other
words, the phrase “as if the premises were under the exclusive jurisdiction of the State” means that the “workers’ compensation laws” of the State are to be applied
without regard to the fact that it is a federal facility.
Washington’s facially discriminatory law, of course,
does the exact opposite.
For similar reasons, the panel was also wrong in suggesting that § 3172(a) only requires equivalence between the state laws applied to a federal facility and the
laws that a State hypothetically could pass in regulating
a non-federal project. See Washington, 971 F.3d at 865
(noting that Washington could pass a similar law to regulate state projects); Concurrence at 7 (insisting that “a
state may enact a workers’ compensation scheme for
federally-owned property as long as it could enact the
same scheme ‘in the same way and to the same extent’ if
the property were under the jurisdiction of the state”).
Such a rule would make no logical sense, because it
would effectively eliminate the non-discrimination requirement: it would allow a State to discriminate
against the Federal Government so long as the State
could have chosen to apply similar rules to other facilities
—in other words, the State may discriminate so long as
the State could have chosen not to discriminate.

54a
The panel’s reliance on hypothetical laws is also refuted by the statutory text, which says that the agency
charged with enforcing “the workers’ compensation
laws” may apply “the laws” to federal property as specified. 40 U.S.C. § 3172(a) (emphasis added). It says
nothing about comparing state laws discriminating
against the Federal Government to the hypothetical laws
that the State could adopt. The concurrence nonetheless insists that the statute’s use of the phrase “as if ”
instructs courts to examine hypothetical laws, see Concurrence at 10 n.2, but that is wrong. What is hypothesized by the use of “as if ” in the statute is only the status of the property and not the laws to be applied to it.
By its plain terms, § 3172(a) instructs a State to apply
“the state workers’ compensation laws”—not some hypothetical law that does not exist—“in the same way and
to the same extent as if the premises were under the exclusive jurisdiction of the State.” 40 U.S.C. § 3172(a)
(emphasis added).
The concurrence relies on a colorful example to explain how the panel decision’s focus on hypothetical
state laws would work, but the example only serves to
underscore the panel’s clear and deeply troubling error.
The concurrence explains that, if the state Constitution
“contains a provision stating that ‘workers’ compensation payments to state employees may not exceed
$100,000,” then a State could not apply a discriminatory
rule that federal park rangers who are attacked by
bears get $1,000,000, because “Washington could not
apply” such a rule “to state park rangers.” See Concurrence at 8-9. The concurrence’s focus on hypothetical state constitutional limits is odd, because the statute
requires that awards against the Federal Government
must be the same “as the employee would receive if

55a
working for a wholly private facility,” Goodyear, 486
U.S. at 183-84 (emphasis added), not what the employee
“could receive” under some hypothetical state law that
does not exist. 3 Moreover, the panel’s hypothetical implies that, absent its mythical state constitutional limit
of $100,000 for workers’ compensation benefits—which,
of course, no State has—then § 3172 would permit a
State to adopt a discriminatory rule in which state park
rangers would receive $100 for a work-related injury
while federal park rangers would receive $1,000,000.
See Concurrence at 8-9 (italicizing the “and” in explaining that the state constitutional limit is loadbearing in
the panel’s hypothetical). This head-snapping suggestion confirms that the panel’s statutory analysis is profoundly flawed.
The concurrence is also wrong in arguing that, had
Congress wanted to prevent States from discriminating
against the Federal Government in their workers’ compensation laws, then it could have chosen different language that would have conveyed that meaning “ ‘in unmistakable terms.’ ” See Concurrence at 11 n.3; see
also Washington, 971 F.3d at 864-65 (making a similar
point). This flips the governing canon of construction
on its head. The question here is not whether § 3172(a)’s
non-discrimination requirement could have been stated
more clearly. The question is, conversely, whether
Congress provided “ ‘clear and unambiguous’ authorization” affirmatively allowing such discrimination.
3
The concurrence is therefore simply wrong in contending that
Goodyear somehow endorsed the panel’s peculiar position that
§ 3172(a) allows States to do whatever they want to the Federal Government so long as they “could” do the same to a non-federal facility.
See Concurrence at 13 n.5.

56a
Goodyear, 486 U.S. at 180 (emphasis added) (citation
omitted). It did not.
III

The direct financial consequences of the panel’s decision may be substantial, underscoring the importance of
this case. And under the panel’s decision, any State in
the Ninth Circuit is now also presumably free to impose
its own highly burdensome and facially discriminatory
workers’ compensation rules against the Federal Government. The concurrence nonetheless belittles the
impact of the decision, noting that, unlike the Bank of
the United States in McCulloch, no federal entity is
threatened with elimination here. See Concurrence at
17-18. But the fact that the Federal Government in
2021 is large enough to absorb Washington’s substantial
financial hit here does not in any way justify the panel’s
unprecedented betrayal of the bedrock principles established in McCulloch.
Moreover, the implications of the panel’s decision extend well beyond § 3172 and the workers’ compensation
context. As the panel stated in its opinion, “we are presented with a congressional waiver of immunity that
contains similar text—i.e., ‘in the same way and to the
same extent’—that we have already understood to permit a ‘distinction’ based on federal status,” and the
panel held that courts confronting other such statutes
“ought to interpret similar language in the same way,
unless context indicates that they should do otherwise.”
971 F.3d at 864 (citing Lewis County). The panel’s pronouncement that the phrase “in the same way and to the
same extent” should henceforward be construed “to permit a ‘distinction’ based on federal status” could have
very sweeping implications indeed. Many statutes use

57a
the same sort of wording at issue here, including the tax
statute at issue in Lewis County. The panel’s egregious error is one that should have been nipped in the
bud by granting rehearing en banc.
* * *
For the foregoing reasons, I respectfully dissent
from the denial of rehearing en banc.
OPINION

M. SMITH, Circuit Judge:
The Hanford site is a decommissioned federal nuclear production site that sprawls over more than five
hundred square miles in southeastern Washington State.
While active between 1944 and 1989, the Hanford site
produced nearly two-thirds of the nation’s weapons
grade plutonium for use in the United States nuclear
program during World War II and the Cold War. The
site also generated significant amounts of highly radioactive and chemically hazardous waste. The United
States Department of Energy (DOE) has overseen
cleanup of the Hanford site since 1989, primarily relying
on private contractors and subcontractors to perform
the actual cleanup work. These cleanup operations are
expected to last for at least six more decades.
Employees of private contractors working on federal
land, like the employees of the DOE contractors who
work at the Hanford site, may pursue state workers’
compensation claims. 40 U.S.C. § 3172; Wash. Rev.
Code § 51.12.060. The DOE has chosen to insure such
claims for most of its contractors at the Hanford site.

58a
In 2018, Washington amended its workers’ compensation scheme by enacting HB 1723, a law that applies only
to Hanford site workers who work directly or indirectly
for the United States. 2018 Wash. Sess. Laws 226 (codified at Wash. Rev. Code § 51.32.187). HB 1723 establishes for these workers, inter alia, a presumption that
certain conditions and cancers are occupational diseases, which is rebuttable by only clear and convincing
evidence. Wash. Rev. Code § 51.32.187(2)(a), (b).
Concerned about “heightened liability,” the United
States sued Washington 1, claiming that HB 1723 impermissibly directly regulates and discriminates against
the Federal Government and those with whom it deals
in violation of the doctrine of intergovernmental immunity. The district court granted summary judgment for
Washington, pursuant to a congressional waiver of immunity that authorizes the States to apply their workers’ compensation laws to “all” federal land and projects
in the states “in the same way and to the same extent as
if the premises were under the exclusive jurisdiction of
the State[.]” 40 U.S.C. § 3172. The United States appeals. We hold that HB 1723 falls within § 3172’s
waiver and, thus, does not violate the doctrine of intergovernmental immunity. We, therefore, affirm.

1
The Defendants are the State of Washington, Washington Governor Jay Inslee, the Washington State Department of Labor and
Industries (DLI), and DLI Director Joel Sacks. We refer collectively to them as “Washington” and “the State.”

59a
FACTUAL AND PROCEDURAL BACKGROUND
I.

Factual Background
A.

The Hanford Site Cleanup

The Hanford site cleanup is, in the DOE’s words, “unprecedented in its scale and complexity.” The liquid
waste that the site generated—over fifty million gallons
—is stored in 177 underground holding tanks, most of
which are over seven decades old. The site also produced 270 billion gallons of contaminated groundwater,
twenty-five million cubic feet of buried or stored solid
waste, 2,300 tons of spent nuclear fuel, and twenty tons
of plutonium bearing materials. There are roughly
10,000 DOE contractor employees at the Hanford site,
some of whom perform the cleanup operations. Individuals working at the Hanford site cleanup operations
face exposure to radioactive substances and hazardous
chemicals.
B.

Washington’s Workers’ Compensation Scheme

The Washington Industrial Insurance Act (WIIA) is
the State’s workers’ compensation and industrial insurance regime. See Wash. Rev. Code § 51.04.10 et seq.
The WIIA establishes a statutory mechanism for workers that have suffered injury or contracted an “occupational disease,” id. § 51.08.140, caused by their employment to seek compensation through an award of benefits. Dennis v. Dep’t of Labor & Indus. of State of
Wash., 745 P.2d 1295, 1301 (Wash. 1987).
Since 1937, the WIIA has covered employees of private contractors who work on federal land located in the
state. See An act relating to workmen’s compensation,
ch. 147, 1937 Wash. Sess. Laws 525 (codified as amended

60a
at Wash. Rev. Code § 51.12.060). 2 The State extended
its workers’ compensation laws to the employees of federal contractors following the enactment of 40 U.S.C.
§ 290, the former federal law that authorized states to
apply their workers’ compensation laws to federal land
and projects located within the state. 3 Wash. Rev.

In its present form, Washington Revised Code § 51.12.060 provides that:
2

The application of this title and related safety laws is hereby
extended to all lands and premises owned or held by the United
States of America, by deed or act of cession, by purchase or
otherwise, which are within the exterior boundaries of the
state of Washington, and to all projects, buildings, constructions, improvements, and property belonging to the United
States of America, which are within the exterior boundaries of
the state, in the same way and to the same extent as if said
premises were under the exclusive jurisdiction of the state, and
as fully as is permitted under the provisions of that act of the
congress of the United States approved June 25, 1936, granting to the several states jurisdiction and authority to apply
their state workers’ compensation laws on all property and
premises belonging to the United States of America, . . .
PROVIDED, That this title shall not apply to employees of the
United States of America.
3

Section 290 provided, in relevant part, that:
[W]hatsoever constituted authority of each of the several
States is charged with the enforcement of and requiring compliances with the State workmen’s compensation laws of said
States and with the enforcement of and requiring compliance
with the orders, decisions, and awards of said constituted authority of said States shall have the power and authority to apply such laws to all lands and premises owned or held by the
United States of America by deed or act of cession, by purchase or otherwise, which is within the exterior boundaries of
any State and to all projects, buildings, constructions, improve-

61a
Code § 51.12.060. Thus, employees of DOE contractors and subcontractors at the Hanford site may pursue
state workers’ compensation claims. The WIIA, however, does not cover DOE’s own employees. Id.
In 1997, Washington amended the WIIA to permit
the DLI to approve, upon the request of the United
States Secretary of Defense or the Secretary of the
DOE, “special insuring agreements providing industrial
insurance coverage for workers engaged in the performance of work, directly or indirectly, for the United
States regarding projects and contracts at the Hanford
Nuclear Reservation.” 1997 Wash. Sess. Laws 573
(codified at Wash. Rev. Code § 51.04.130). The DOE
has paid the benefits awards and administrative costs of
workers’ compensation claims for the employees of
many of its contractors and subcontractors pursuant to
contractual obligations as well as pursuant to memoranda of understanding (MOU) with the State. The
DOE and Washington entered into the most recent
MOU after Washington enacted HB 1723. Private contractors not covered by an MOU provide workers’ compensation coverage through the State workers’ compensation fund or as self-insurers.
C.

HB 1723

This case concerns HB 1723’s amendments to the
WIIA. The law applies to “United States department
ments, and property belonging to the United States of America, which is within the exterior boundaries of any State, in the
same way and to the same extent as if said premises were under the exclusive jurisdiction of the State within whose exterior boundaries such place may be.
Act of June 25, 1936, ch. 822, 49 Stat. 1938.

62a
of energy Hanford site workers” and “Hanford site
workers,” defined as:
[A]ny person, including a contractor or subcontractor, who was engaged in the performance of work, either directly or indirectly, for the United States, regarding projects and contracts at the Hanford nuclear site and who worked on the site at the two hundred east, two hundred west, three hundred area, environmental restoration disposal facility site, central
plateau, or the river corridor locations for at least one
eight-hour shift while covered under this title.”
Wash. Rev. Code § 51.32.187(1)(b). 4 It is estimated
that the law may cover some 100,000 persons.
HB 1723 creates a “prima facie presumption” for
“United States [DOE] Hanford site workers” that certain “diseases and conditions” are “occupational diseases” under the WIIA. Id. § 51.32.187(2)(a); see also
id. §§ 51.32.187(3) (identifying certain conditions),
51.32.187(4) (specifying the requirements for and application of the presumption to certain cancers). An employer may rebut the presumption by “clear and convincing evidence,” which includes the “use of tobacco
products, physical fitness and weight, lifestyle, hereditary factors, and exposure from other employment or
nonemployment activities.”
Id. § 51.32.187(2)(b).
The presumption applies “following termination of
service for the lifetime of ” a covered worker. Id.
4
“Hanford nuclear site” and “Hanford site” are defined to mean
“the approximately five hundred sixty square miles in southeastern
Washington state” excluding certain leased lands, state-owned lands,
and lands owned by the Bonneville Power Administration, which is
owned by the United States[.]” Wash. Rev. Code § 51.32.187(1)(a).

63a
§ 51.32.187(5)(a). A covered worker or the survivor of
a deceased covered worker may refile a previously denied claim. Id. § 51.32.187(5)(b). In addition, a claimant may recover reasonable costs, including attorney’s
fees, in any appeal that results in a benefits award when
the presumption applies. Id. § 51.32.187(6).
II. The District Court Proceedings

The United States brought suit for declaratory and
injunctive relief against Washington, claiming that HB
1723 discriminates against the Federal Government and
directly regulates it in violation of the doctrine of intergovernmental immunity. On cross motions, the district court granted summary judgment for the State.
The court reasoned that 40 U.S.C. § 3172’s waiver of immunity permits the State “to use the same power it
possesses to craft workers compensation laws for nonfederal employees to address injured employees on federal land,” including “the ability to legislate, in a piecemeal fashion, to address specific risks to employees in
specific industries.” The United States timely appealed.
JURISDICTION AND STANDARD OF REVIEW

We have jurisdiction pursuant to 28 U.S.C. § 1291.
We review de novo a district court’s decision on cross
motions for summary judgment. Empire Health Found.
v. Azar, 958 F.3d 873, 882 (9th Cir. 2020). Statutory
interpretation is a question of law that we review de
novo. Comcast of Sacramento I, LLC v. Sacramento
Metro. Cable TV Comm’n, 923 F.3d 1163, 1168 (9th Cir.
2019).

64a
ANALYSIS
I.

The Doctrine of Intergovernmental Immunity

The United States’ claims against Washington invoke
the doctrine of intergovernmental immunity. That
doctrine “derive[s] from the Supremacy Clause of the
Federal Constitution, U.S. Const., art. VI, which mandates that ‘the activities of the Federal Government are
free from regulation by any state.’ ” United States v.
California, 921 F.3d 865, 878 (9th Cir. 2019) (quoting
Boeing Co. v. Movassaghi, 768 F.3d 832, 839 (9th Cir.
2014)), cert. denied, — S. Ct. —, 2020 WL 3146844 (U.S.
June 15, 2020). The doctrine traces its origins to “the
Supreme Court’s decision in McCulloch v. Maryland,
which established that ‘the states have no power, by taxation or otherwise, to retard, impede, burden, or in any
manner control, the operations of the constitutional laws
enacted by congress to carry into execution the powers
vested in the general government.’ ” U.S. v. City of Arcata, 629 F.3d 986, 991 (9th Cir. 2010) (quoting McCulloch v. Maryland, 17 U.S. (4 Wheat.) 316, 436 (1819)).
Pursuant to the doctrine, “state laws are invalid if they
‘regulate[] the United States directly or discriminate [ ]
against the Federal Government or those with whom it
deals.’ ” Boeing, 768 F.3d at 839 (quoting North Dakota v. United States, 495 U.S. 423, 435 (1990) (plurality
decision)). This is so “unless Congress provides ‘clear
and unambiguous’ authorization for such regulation.”
Goodyear Atomic Corp. v. Miller, 486 U.S. 174, 180
(1988) (quoting EPA v. State Water Res. Control Bd.,
426 U.S. 200, 211 (1976)) (emphasis added).
By its terms, HB 1723 is a state workers’ compensation law that applies only to individuals who perform
work at the Hanford site “directly or indirectly, for the

65a
United States.” Wash. Rev. Code § 51.32.187(1)(b).
Both sides agree that § 3172 waives the Federal Government’s immunity from state workers’ compensation
laws. Our understanding of § 3172’s predecessor statute would support that conclusion. See Begay v. KerrMcGee Corp., 682 F.2d 1311, 1319 (9th Cir. 1982) (concluding that 40 U.S.C. § 290 “unambiguously permits application of state workers’ compensation laws to all
United States territory within the state.”). The United
States and Washington disagree, however, about
whether § 3172 permits workers’ compensation laws
that apply uniquely to the workers of those with whom
the Federal Government deals.
Our resolution of
§ 3172’s scope will determine whether HB 1723 falls
within the waiver and, thus, whether HB 1723 violates
the doctrine of intergovernmental immunity.
II. Section 3172’s Waiver of Immunity Encompasses HB
1723

To ascertain § 3172’s scope, we “begin[] with the plain
language of the statute.” Jimenez v. Quarterman, 555
U.S. 113, 118 (2009). “[W]e examine not only the specific provision at issue, but also the structure of the statute as a whole, including its object and policy.” United
States v. Lillard, 935 F.3d 827, 833 (9th Cir. 2019) (citation omitted). Section 3172(a) provides that:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and with the orders, decisions, and awards
of the authority may apply the laws to all land and
premises in the State which the Federal Government
owns or holds by deed or act of cession, and to all projects, buildings, constructions, improvements, and

66a
property in the State and belonging to the Government, in the same way and to the same extent as if
the premises were under the exclusive jurisdiction of
the State in which the land, premises, projects, buildings, constructions, improvements, or property are
located.
40 U.S.C. § 3172(a).
We do not consider the meaning of this text on a
blank slate. In Goodyear Atomic Corp. v. Miller, the
Supreme Court addressed the predecessor statute to
§ 3172. In Goodyear, a private contractor operating a
federally owned nuclear production facility challenged
an Ohio workers’ compensation law that provided a supplemental workers’ compensation award for injuries resulting from an employer’s violation of a state safety
regulation. 486 U.S. at 176. Assuming that the Ohio
law was “sufficiently akin to direct regulation . . . to
be potentially barred by the Supremacy Clause,” the
Court concluded that “§ 290 provides the requisite clear
congressional authorization for the application of the
provision to workers at the Portsmouth facility.” 5 Id.
at 182.
To arrive at that conclusion, the Court rejected the
argument raised by the private contractor and the
United States Solicitor General that the statute’s use of

5
The United States does not explain here how HB 1723 directly
regulates the Federal Government by adopting a presumption to determine whether a given “Hanford site worker” is entitled to receive
a workers’ compensation award pursuant to the WIIA. As in Goodyear, we will assume that HB 1723 is “sufficiently akin to direct regulation” of the Federal Government to trigger the doctrine of intergovernmental immunity. 486 U.S. at 182.

67a
the phrase “workmen’s compensation laws” was “not intended to include the additional-award provision in Ohio’s
workers’ compensation law.” Id. at 183. The Court
observed that the statute did not define the phrase
“workmen’s compensation laws.” Id. Focusing on the
essential terms of the statutory text, including the
phrase “in the same way and to the same extent as if said
premises were under the exclusive jurisdiction of the
State,” the Court stated unequivocally that the statute
“place[d] no express limitation on the type of workers’
compensation scheme that is authorized.” Id. (emphasis added). Rather than limiting the authorized workers’ compensation laws, the Court explained that “[o]n
its face, § 290 compel[led] the same workers’ compensation award for an employee injured at a federally owned
facility as the employee would receive if working for a
wholly private facility.” Id. at 183-84.
As the United States concedes, § 3172 is materially
identical to its predecessor. 6 But the United States
homes in on the phrase “in the same way and to the same
extent” to claim that § 3172 is a “very limited waiver” of
immunity. The United States reads this text and
There are some differences between § 3172 and its predecessor.
Unlike its predecessor, § 3172 does not refer to “workmen’s compensation laws,” but rather “workers’ compensation laws.” And, instead of providing that the state workers’ compensation authority
“shall have the power and authority to apply” workers’ compensation laws, Congress has provided that the state authority “may apply” such laws. This change signifies nothing more than that a
state may, in its discretion, opt to apply its workers’ compensation
laws to federal premises in the state. Fernandez v. Brock, 840 F.2d
622, 632 (9th Cir. 1988) (“ ‘May’ is a permissive word, and we will
construe it to vest discretionary power absent a clear indication from
the context that Congress used the word in a mandatory sense.”).
6

68a
Goodyear as “strongly suggest[ing]” that § 3172 authorizes only the “extension of generally applicable laws,”
rather than “discrete” state laws that “single out” the
Federal Government and its contractors. We disagree.
The plain text of § 3172 does not purport to limit the
workers’ compensation laws for which it waives intergovernmental immunity to only those that are “generally applicable.” We are not free to add text to a statute that is not there. Ariz. State Bd. for Charter Sch. v.
U.S. Dep’t of Educ., 464 F.3d 1003, 1007 (9th Cir. 2006).
Like its predecessor, § 3172 does not define the phrase
“state workers’ compensation laws” and otherwise “places
no express limitation on the type of workers’ compensation scheme that is authorized.” Goodyear, 486 U.S.
at 183 (emphasis added). The Court’s application of
the predecessor statute in Goodyear does not warrant a
different reading of the statute. To be sure, the Court
considered there a state workers’ compensation law that
did not concern a particular employer, or a particular
site located in the state, like HB 1723 does. Id. at 18385. But the Court did not purport to impose the limitation on the statute that the United States seeks to impose here; indeed, the Court recognized that the statute
placed no express limitation on permissible workers’
compensation laws. Id. at 183. We cannot properly
construe § 3172 in a way that would conflict with that
understanding of a materially identical statutory provision.
Equally unavailing is the United States’ assertion
that the phrase “in the same way and to the same extent” codifies a nondiscrimination rule that limits
§ 3172’s waiver. Our decision in United States v. Lewis
County, 175 F.3d 671 (9th Cir. 1999), is illustrative.

69a
In Lewis County, we considered the application of a
federal statute that “waives the immunity of the federal
government from state taxation by authorizing state
and local governments to tax . . . property owned
by the federal Farm Service Agency (‘FSA’) ‘in the same
manner and to the same extent as other property is
taxed.’ ” Id. at 673 (quoting 7 U.S.C. § 1984). In relevant part, the United States challenged a Washington
county’s taxation of FSA-owned land. The United
States argued that the county had discriminated against
a federal agency in violation of § 1984 and the doctrine
of intergovernmental tax immunity because the county
did not tax a comparable state agency. Id. at 674-75.
We rejected that argument because “Congress ha[d]
made its assessment of the federal interest in [] § 1984[.]”
Id. at 676. We explained that, by virtue of that statute,
Congress had “sufficiently qualifie[d] the intergovernmental immunity of the United States to permit the
state to make the distinction it has.” Id. We saw “no
reason why state or local governments [had to] engage
in a circular process of taxing themselves in order to impose the tax on the federal government that Congress
has authorized.” Id.
Echoing its arguments in Lewis County, the United
States argues here that HB 1723 violates the doctrine of
intergovernmental immunity because it discriminatorily
applies only to Hanford site workers who work indirectly or directly for the Federal Government, without
any application to state or private entities who perform
work on or near the Hanford site. As in Lewis County,
we are presented with a congressional waiver of immunity that contains similar text—i.e., “in the same way and
to the same extent”—that we have already understood
to permit a “distinction” based on federal status. “A

70a
basic principle of interpretation is that courts ought to
interpret similar language in the same way, unless context indicates that they should do otherwise.” Shirk v.
United States ex rel. Dep’t of Interior, 773 F.3d 999,
1004 (9th Cir. 2014). The United States identifies no
reason why we should depart from our understanding in
Lewis County. As with the waiver there, Congress
codified the federal interest in § 3172. This statute authorizes the States to apply workers’ compensations
laws to federal land located in the state without limitation and thus permits the distinction that HB 1723
draws.
In light of the United States’ arguments here, a comparison of § 3172 with another waiver, namely the
waiver contained in the Comprehensive Environmental
Response, Compensation, and Liability Act (CERCLA),
42 U.S.C. § 9620(a)(4), reinforces the conclusion that
§ 3172 does not codify a nondiscrimination rule. 7
CERCLA waives the Federal Government’s immunity from state laws concerning the removal and remediation of hazardous substances, but that waiver “shall not
apply to the extent a State law would apply any standard
or requirement to [Federal] facilities which is more
stringent than the standards or requirements applicable
7
In addition to CERCLA, the district court contrasted § 3172
with 4 U.S.C. § 111, a waiver of intergovernmental tax immunity that
expressly does not permit state and local taxation that “discriminate[s]” against United States’ officers or employees simply because of their federal status. Section 3172, indeed, bears no semblance to that provision. Contrary to the United States’ objection
to this comparison, the comparison merely underscores that Congress knows how to limit a waiver in the same way that the United
States asks us to read § 3172.

71a
to facilities which are not owned or operated by [the
Federal Government].” 42 U.S.C. § 9620(a)(4) (emphasis added). We held in Boeing Co. v. Movassaghi that
this waiver did not save a California law that imposed
“more stringent standards” on the Federal Government
for the cleanup of a federal nuclear site located in California. 768 F.3d at 841-42. Because we could locate
no other congressional authorization, we concluded that
the California law both directly regulated and discriminated against the Federal Government in violation of
the Supremacy Clause and the doctrine of intergovernmental immunity. Id. at 840-43.
Here, the United States seeks to import into the statutory phrase “in the same way and to the same extent”
the limitation that Congress codified in CERCLA.
The United States avers that HB 1723 impermissibly
applies “more stringent regulation” to the Federal Government. And it argues that reading § 3172 to “authorize[] a state to enact laws that subject federal contractors, and only federal contractors, to more stringent
standards than those of generally applicable state law”
is “atextual.” Neither the text on which the United
States focuses, nor any other text in § 3172, however,
excepts from the waiver those state workers’ compensation laws that are “more stringent” as applied to the
Federal Government or those with whom it deals. Boeing and its analysis are inapposite.
We arrive, finally, to considering the statutory text
that the United States’ reading of § 3172 omits: “as if
the premises were under the exclusive jurisdiction of the
State[.]” 40 U.S.C. § 3172. We, of course, cannot ignore this text. Ariz. State Bd. for Charter Sch., 464
F.3d at 1007 (stating that a court may not “subtract”

72a
statutory text). And we must read it with the rest of
the statutory text. Davis v. Mich. Dep’t of Treasury,
489 U.S. 803, 809 (1989) (“It is a fundamental canon of
statutory construction that the words of a statute must
be read in their context and with a view toward their
place in the overall statutory scheme.”).
When the phrase “in the same way and to the same
extent” is read with “as if the premises were under the
exclusive jurisdiction of the State,” it is evident that
§ 3172 removes federal jurisdiction as a barrier to a
state’s authority over workers’ compensation laws for all
who are located in the state. See Peak v. Small Business Admin., 660 F.2d 375, 376 n.1 (8th Cir. 1981) (“[S]tate
workmen’s compensation laws, as applied to private employers working on federal land, are freed from any restraint by reason of the exclusive federal jurisdiction.”);
Capetola v. Barclay White Co., 139 F.2d 556, 559 (3d Cir.
1943) (“[T]he purpose and effect of the . . . Act was
to free State workmen’s compensation laws from the restraint upon their enforcement theretofore existing by
reason of the exclusive federal jurisdiction of lands
within the States[.]”), cert. denied, 321 U.S. 799 (1944);
Travelers Ins. Co. v. Cardilllo, 141 F.2d 362, 363 (D.C.
Cir. 1942) (“[T]he statute . . . revest[s] State jurisdiction which, presumably, Congress thought might be
divested by the acquisition and ownership of the land by
the United States for Federal purposes. The effect
. . . is . . . to restore the status quo ante, and the
purpose was to make sure that employees of contractors
during work on a Federal building in a Federal area
would be able to recover compensation benefits for disability or death.”).

73a
By removing federal jurisdiction as a barrier to application of state workers’ compensation laws to those
who work on federal land located in the State, § 3172 authorizes the State to apply to such land the authority it
has over workers’ compensation in its exclusive jurisdiction. Subject to constitutional constraints, the States
possess broad authority to enact laws that are reasonably deemed to be necessary to promote the health,
safety, and general welfare of those in its jurisdiction,
including workers’ compensation laws. Weber v. Aetna
Cas. & Sur. Co., 406 U.S. 164, 172 (1972); Mountain
Timber Co. v. Wash., 243 U.S. 219, 238 (1917). We presume that Congress was aware of this authority when it
fashioned § 3172 to permit the State to apply its workers’ compensations laws to federal land in the State “as
if ” it were under the State’s “exclusive jurisdiction,”
without exception.
Goodyear, 486 U.S. at 184-85.
Critically, as it did in the district court, the United
States conceded during oral argument that Washington
could enforce a version of HB 1723 that did not involve
the Federal Government and where the Hanford site
were a state project. 8 As we read it, § 3172 permitted
Washington to enact and apply HB 1723 to federal contractors and their employees at the Hanford site.
It thus follows that, “when Congress chooses not to
include any exceptions to a broad rule, courts apply the
broad rule.” Bostock v. Clayton Cty., 140 S. Ct. 1731,
1747(2020). Section 3172 permits the State to apply
8
The State also previously amended its workers’ compensation
laws to adopt a presumption applicable only to firefighters. Wash.
Rev. Code § 51.32.185. Thus, it is not unprecedented for Washington to exercise its authority to fashion workers’ compensation laws
to adopt a presumption tailored to certain employment.

74a
workers’ compensation laws to federal land located in
the State, without limitation, and to make the distinction
that it has drawn in HB 1723. Thus, HB 1723 falls
within the scope of § 3172’s waiver and does not violate
the doctrine of intergovernmental immunity.
III. Remaining Issues

Notwithstanding the foregoing, we briefly explain
why we decline to resolve two other issues raised by the
parties.
First, the United States observes that the Federal
Government has fashioned a program for workers injured by exposure to radiation and chemicals at DOE
sites, pursuant to the Energy Employees Occupational
Illness Compensation Program Act (EEOICPA), 42
U.S.C. § 7384 et seq., as amended by 118 Stat. 1811, 2178
(2004). Pursuant to the EEOICPA, the Federal Government has paid out more than $1.75 billion to Hanford
workers as of June 2020. 9 In the United States’ view,
EEOICPA “properly addresses concerns of this kind.”
Although this argument sounds in preemption, the
United States has waived that argument by not clearly
and distinctly raising it. McKay v. Ingleson, 558 F.3d
888, 891 n.5 (9th Cir. 2009).
Second, Washington argues that HB 1723 is rationally related to a government interest and thus is a constitutional exercise of its authority even if the law discriminates against those who deal with the Federal Government. This argument correctly recognizes that state
9
See United States Dep’t of Labor, Total Benefits Paid by Facility, Cumulative EEOICPA Compensation and Medical Paid—
Hanford (June 30, 2020), available at https://www.dol.gov/owcp/
energy/regs/compliance/charts/hanford.htm.

75a
authority is subject to constitutional constraints, including the Equal Protection and Due Process Clauses of the
Fourteenth Amendment. Weber, 406 U.S. at 172; Mountain Timber Co., 243 U.S. at 243-45. But the only
claims the United States raised in this case concern
whether HB 1723 violates the doctrine of intergovernmental immunity. We need not go further than § 3172
to resolve those claims. See Nw. Austin Mun. Util.
Dist. No. One v. Holder, 557 U.S. 193, 197 (2009) (“Our
usual practice is to avoid the unnecessary resolution of
constitutional questions.”).
CONCLUSION

We hold that HB 1723 falls within § 3172’s waiver of
the Federal Government’s immunity from state workers’ compensation laws, and thus does not violate the
doctrine of intergovernmental immunity.
Consequently, Washington was entitled to summary judgment
on the United States’ claims.
AFFIRMED.

76a
APPENDIX C
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF WASHINGTON

No. 4:18-CV-5189-SAB
UNITED STATES OF AMERICA, PLAINTIFF
v.
STATE OF WASHINGTON, ET AL., DEFENDANT
[Filed:

June 13, 2019]

ORDER GRANTING DEFENDANTS’ MOTION FOR
SUMMARY JUDGMENT

Before the Court are the United States’ Motion for
Summary Judgment, ECF No. 20, and the State of
Washington’s Response and Cross-Motion for Summary
Judgment, ECF No. 23. This case involves a recently
passed Washington law, Wash. Rev. Code § 51.32.187,
which creates a rebuttable presumption that, for the
purposes of Washington’s workers compensation regime, employees of contractors or subcontractors of the
United States working at the Hanford nuclear cleanup
site who suffer from a list of illnesses contracted those
ailments as a result of their work. The United States
argues that this law violates the Supremacy Clause, U.S.
Const. Art. VI, cl. 2. Washington argues that the
United States has waived its federal sovereign immunity
with regard to the enforcement of workers compensation statutes on federal land. All parties agree that the

77a
matter is appropriate for resolution through crossmotions for summary judgment.
FACTUAL BACKGROUND

Hanford is a former nuclear production site in Washington, and the current site of a cleanup operation of unprecedented scale and complexity. The United States
Department of Energy (DOE) is overseeing the cleanup,
with a primarily contractor workforce, on federally
owned land. There are roughly a dozen contractors
and subcontractors of the DOE assisting with the cleanup.
In addition, there are some employers who are situated
in the same geographical area but which are not subcontractors of the DOE, including the Laser Interferometer Gravitational Wave Observatory (LIGO) and the private company US Ecology.
By the text of Wash. Rev. Code § 51.32.187, employees at LIGO and US Ecology are not granted the same
presumption as federal contractors and subcontractors
working at the same sites. Wash. Rev. Code § 51.32.187
applies only to “United States department of energy
Hanford site workers,” and defines such workers to be
“any person, including a contractor or subcontractor,
who was engaged in the performance of work, either directly or indirectly, for the United States, regarding
projects and contracts at the Hanford nuclear site, and
who worked on the site at [specific locations.]” Wash.
Rev. Code § 51.32.187. The law further clarifies that
the term “Hanford site” means the “approximately five
hundred sixty square miles in southeastern Washington,
excluding leased land, state-owned lands, and lands
owned by the Bonneville Power Administration.” Id.

78a
The DOE submits that the law will increase its costs
at the cleanup site. The DOE bears workers compensation costs due to a memorandum of understanding
(MOU) between the State of Washington and the Department of Energy, which provides that the DOE will
cover the worker’s compensation administration and
benefit awards for its contractors and subcontractors at
the Hanford site. This MOU, authorized by Wash.
Rev. Code § 51.04.130, makes the DOE the certified selfinsurer under Washington’s worker compensation regime, such that the DOE will pay for benefits and administration for the 13 contractors and subcontractors
currently working at the Hanford site, as well as the 61
contractors who had previously performed work there.
The United States is challenging the newly passed
law under the Supremacy Clause, arguing that it (a) facially discriminates against the Federal Government;
and (b) directly regulates the Federal Government by
imposing additional costs on the cleanup operation.
Washington alleges that the United States authorized
the several states to enact such bills with the passage of
40 U.S.C. § 3172, which provides a waiver of intergovernmental immunity as it relates to workers compensation regimes on federally owned land, and that any differential treatment between federal contractors and nonfederal employers is justified by significant differences
—namely, the heightened risk of exposure to harmful
compounds by federal workers and poor chemical testing records kept by the federal contractors.
The Court agrees that 40 U.S.C. § 3172 constitutes
waiver by congressional authorization, and thus, does

79a
not reach the question of whether the statute would violate intergovernmental immunity absent such authorization.
CONGRESSIONAL AUTHORIZATION

Generally, the intergovernmental immunity recognized by the Supremacy Clause prohibits states from either discriminating against or directly regulating the
federal government. Boeing Co. v. Movassaghi, 768
F.3d 832, 839 (9th Cir. 2014). Congress can provide clear
and unambiguous authorization for state regulations
that would otherwise be impermissible under the Supremacy Clause. Goodyear Atomic Corp. v. Miller, 486
U.S. 174, 180 (1988) (citations omitted). Washington
argues that 40 U.S.C. § 3172 presents just such an authorization. That statute provides that:
The state authority charged with enforcing and requiring compliance with the state workers’ compensation laws and will the orders, decisions, and awards
of the authority may apply the laws to all land and
premises in the State which the Federal Government
owns or holds by deed or act of cession, and to all projects, buildings, constructions, improvements, and
property in the State and belonging to the Government, in the same way and to the same extent as if
the premises were under the exclusive jurisdiction of
the State in which the land, premises, projects, buildings, constructions, improvements, or property are
located.
40 U.S.C. § 3172 (emphasis added).
The United States interprets this statute to allow
only non-discriminatory laws, which, through neutral
application, regulate employers on federal land.

80a
Washington interprets this law as allowing the state to
regulate federal lands within its geographical boundaries with all the tools that could be brought to bear on
non-federally owned land.
The plain language of
the statute supports Washington’s interpretation—
Washington’s workers compensation regime applies to
federal land “in the same way and to the same extent as
if the premises were under the exclusive jurisdiction of
the State.”
The Court notes that other authorizations of intergovernmental immunity for laws on other topics which
retain the non-discriminatory aspect intergovernmental
immunity, do so expressly. See e.g. 4 U.S.C.A. § 111
(waiving intergovernmental immunity for income tax of
federal employees “if the taxation does not discriminate
against the officer or employee because of the source of
the pay or compensation;”) 42 U.S.C. § 9620(a)(4)) (waiving intergovernmental immunity for environmental
cleanup laws applies on federally owned facilities, so
long as the State law does not “apply any standard or
requirement to such facilities which is more stringent
than the standards and requirements” applied to a nonfederally owned counterpart.)
The worker’s compensation waiver in 40 U.S.C.
§ 3172 does more. The United States Supreme Court
interpreted § 3172 in Goodyear Atomic Corp. v. Miller,
486 U.S. 174, 183-84 (1988). The Court found that the
statute grants the states the “power and authority to apply [workers’ compensation] laws to federal premises in
the same way and to the same extent as if said premises
were under the exclusive jurisdiction of the State,” and
that the plain language of the statute “places no express

81a
limitation on the type of workers’ compensation scheme
that is authorized.” Id.
Thus, the statute allows Washington to use the same
power it possesses to craft workers compensation laws
for non-federal employers to address injured employees
on federal land. Those powers include the ability to
legislate, in a piecemeal fashion, to address specific risks
to employees in specific industries. See Wash. Rev.
Code §§ 51.32.185, 51.16.035(1) (creating a similar workers compensation causation presumption for firefighters.) This is precisely what Wash. Rev. Code § 51.32.187
does.
CONCLUSION

Because Congress has authorized the several states
to regulate workers compensation on federal land to the
same extent that they can regulate non-federal land, and
because Washington could create a similar presumption
as that created in Wash. Rev. Code §§ 51.32.187 if it
were addressing a particular risk to Washington employees on non-federal land, summary judgment is
granted for the Defendants.
Accordingly, IT IS HEREBY ORDERED:
1. Plaintiff’s Motion for Summary Judgment, ECF
No. 20, is DENIED.
2. Defendants’ Cross-Motion for Summary Judgment, ECF No. 23, is GRANTED.
3. Judgment shall be entered against Plaintiff and
in favor of Defendants.
IT IS SO ORDERED.

The District Court Executive
is hereby directed to file this Order, provide copies to
counsel, and close the case.

82a
DATED this 13th day of June 2019.

/s/ STANLEY A. BASTIAN
STANLEY A. BASTIAN
United States District Judge

83a
APPENDIX D

1.

40 U.S.C. 3172 provides:

Extension of state workers’ compensation laws to buildings, works, and property of the Federal Government

(a) AUTHORIZATION OF E XTENSION.—The state authority charged with enforcing and requiring compliance with the state workers' compensation laws and with
the orders, decisions, and awards of the authority may
apply the laws to all land and premises in the State
which the Federal Government owns or holds by deed or
act of cession, and to all projects, buildings, constructions, improvements, and property in the State and belonging to the Government, in the same way and to the
same extent as if the premises were under the exclusive
jurisdiction of the State in which the land, premises, projects, buildings, constructions, improvements, or property are located.
(b) LIMITATION ON RELINQUISHING JURISDICTION.
—The Government under this section does not relinquish its jurisdiction for any other purpose.
(c) NONAPPLICATION.—This section does not modify or amend subchapter I of chapter 81 of title 5.
2.

Revised Code of Washington 51.32.187 provides:

Hanford site workers—Prima facie presumption of certain occupational diseases—Rebuttal—Definitions.

(1) The definitions in this section apply throughout
this section.

84a
(a) “Hanford nuclear site” and “Hanford site” and
“site” means the approximately five hundred sixty square
miles in southeastern Washington state, excluding leased
land, state-owned lands, and lands owned by the Bonneville Power Administration, which is owned by the United
States and which is commonly known as the Hanford
reservation.
(b) “United States department of energy Hanford
site workers” and “Hanford site worker” means any person, including a contractor or subcontractor, who was
engaged in the performance of work, either directly or
indirectly, for the United States, regarding projects and
contracts at the Hanford nuclear site and who worked
on the site at the two hundred east, two hundred west,
three hundred area, environmental restoration disposal
facility site, central plateau, or the river corridor locations for at least one eight-hour shift while covered under this title.
(2)(a) For United States department of energy Hanford site workers, as defined in this section, who are covered under this title, there exists a prima facie presumption that the diseases and conditions listed in subsection
(3) of this section are occupational diseases under
RCW 51.08.140.
(b) This presumption of occupational disease may be
rebutted by clear and convincing evidence. Such evidence may include, but is not limited to, use of tobacco
products, physical fitness and weight, lifestyle, hereditary factors, and exposure from other employment or
nonemployment activities.
(3) The prima facie presumption applies to the following:

85a
(a) Respiratory disease;
(b) Any heart problems, experienced within seventytwo hours of exposure to fumes, toxic substances, or chemicals at the site;
(c) Cancer, subject to subsection (4) of this section;
(d) Beryllium sensitization, and acute and chronic
beryllium disease; and
(e) Neurological disease.
(4)(a) The presumption established for cancer only
applies to any active or former United States department of energy Hanford site worker who has cancer that
develops or manifests itself and who either was given a
qualifying medical examination upon becoming a United
States department of energy Hanford site worker that
showed no evidence of cancer or was not given a qualifying medical examination because a qualifying medical
examination was not required.
(b) The presumption applies to the following cancers:
(i)

Leukemia;

(ii) Primary or secondary lung cancer, including bronchi and trachea, sarcoma of the lung, other than in situ
lung cancer that is discovered during or after a postmortem examination, but not including mesothelioma or
pleura cancer;
(iii) Primary or secondary bone cancer, including the
bone form of solitary plasmacytoma, myelodysplastic
syndrome, myelofibrosis with myeloid metaplasia, essential thrombocytosis or essential thrombocythemia,

86a
primary polycythemia vera (also called polycythemia rubra vera, P. vera, primary polycythemia, proliferative
polycythemia, spent-phase polycythemia, or primary
erythremia);
(iv) Primary or secondary renal (kidney) cancer;
(v) Lymphomas, other than Hodgkin's disease;
(vi) Waldenstrom's macroglobulinemia and mycosis
fungoides; and
(vii) Primary cancer of the: (A) Thyroid; (B) male
or female breast; (C) esophagus; (D) stomach; (E) pharynx, including all three areas, oropharynx, nasopharynx,
and hypopharynx and the larynx. The oropharynx includes base of tongue, soft palate and tonsils (the hypopharynx includes the pyriform sinus); (F) small intestine; (G) pancreas; (H) bile ducts, including ampulla of
vater; (I) gall bladder; (J) salivary gland; (K) urinary
bladder; (L) brain (malignancies only and not including
intracranial endocrine glands and other parts of the central nervous system or borderline astrocytomas); (M)
colon, including rectum and appendix; (N) ovary, including fallopian tubes if both organs are involved; and (O)
liver, except if cirrhosis or hepatitis B is indicated.
(5)(a) The presumption established in this section extends to an applicable United States department of energy Hanford site worker following termination of service for the lifetime of that individual.
(b) A worker or the survivor of a worker who has
died as a result of one of the conditions or diseases listed
in subsection (3) of this section, and whose claim was denied by order of the department, the board of industrial

87a
insurance appeals, or a court, can file a new claim for the
same exposure and contended condition or disease.
(c) This section applies to decisions made after June
7, 2018, without regard to the date of last injurious exposure or claim filing.
(6)(a) When a determination involving the presumption established in this section is appealed to the board
of industrial insurance appeals and the final decision allows the claim of benefits, the board of industrial insurance appeals shall order that all reasonable costs of the
appeal, including attorneys’ fees and witness fees, be paid
to the worker or his or her beneficiary by the opposing
party.
(b) When a determination involving the presumption established in this section is appealed to any court
and the final decision allows the claim for benefits, the
court shall order that all reasonable costs of appeal, including attorneys’ fees and witness fees, be paid to the
worker or his or her beneficiary by the opposing party.

88a
APPENDIX E

89a

